<html>
<title> - HAITI RECONSTRUCTION: SMART PLANNING MOVING FORWARD</title>
<body><pre>[Senate Hearing 111-615]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 111-615

          HAITI RECONSTRUCTION: SMART PLANNING MOVING FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                        DEVELOPMENT AND FOREIGN
                   ASSISTANCE, ECONOMIC AFFAIRS, AND
                 INTERNATIONAL ENVIRONMENTAL PROTECTION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                  U.S. GOVERNMENT PRINTING OFFICE
61-559 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

           SUBCOMMITTEE ON INTERNATIONAL DEVELOPMENT        
           AND FOREIGN ASSISTANCE, ECONOMIC AFFAIRS,        
           AND INTERNATIONAL ENVIRONMENTAL PROTECTION        

             ROBERT MENENDEZ, New Jersey, Chairman        

BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         ROGER F. WICKER, Mississippi
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho
KIRSTEN E. GILLIBRAND, New York

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
MacCormack, Charles, president and CEO, Save the Children, 
  Westport, CT...................................................    19
Prepared statement...............................................    21
Maguire, Robert, associate professor of International Affairs, 
  Trinity Washington University, and chair of the Haiti Working 
  Group of the U.S. Institute of Peace...........................     3
    Prepared statement...........................................     6
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, DC..........................................    12
    Prepared statement...........................................    15

              Additional Material Submitted for the Record

International Housing Coalition (IHC), Washington, DC, prepared 
  statement......................................................    33
Article from Newsweek, ``After Reconstruction'' by Andrew 
  Natsios, January 22, 2010......................................    34

                                 (iii)



 
          HAITI RECONSTRUCTION: SMART PLANNING MOVING FORWARD

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2010

                                       U.S. Senate,
        Subcommittee on International Development and 
            Foreign Assistance, Economic Affairs, and 
            International Environmental Protection, 
            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:25 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the subcommittee) presiding.
    Present: Senators Menendez and Corker.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing, come to order.
    Let me, first, apologize to our witnesses and to the public 
who's here. We have a vote that's going on as we speak, and 
there were two votes, actually, so I'm sure many of you have 
been here before and understand the nature of that--so instead 
of interrupting the hearing, we're just starting a little 
later, so we appreciate your forbearance. And I know that the 
ranking member will be here shortly.
    So, let me start with a statement. We're here today to look 
at the extraordinary reconstruction challenges in the months 
ahead for Haiti and to put forward ideas that should be part of 
a broader discussion, moving forward.
    Of course, first of all, let me say that our thoughts and 
prayers are with the people of Haiti, to all who have lost 
family and loved ones in this tragedy, including to some who 
have lost loved ones, from the United States, and even from my 
State.
    The United States and Haiti are historically tied together 
in important ways, ties that have become clear in the aftermath 
of the earthquake's devastation. The response for aid and 
assistance has reverberated in towns and cities across the 
United States. I can speak to the response in my home State of 
New Jersey, which has the fourth-largest Haitian population in 
the country. In Essex or Union County, I'm hard-pressed to find 
a Haitian-American that doesn't know someone who is lost in 
this catastrophe.
    Today, we meet as the initial response is transitioning to 
a more sustained one. But, even as we transition, we continue 
to work in an acute environment, where life or death hangs in 
the balance for those who remain critically injured. We 
continue to battle logistical constraints to get assistance to 
those in need, and we have only begun the operation to recover 
the remains of tens of thousands who perished under the rubble.
    So, recognizing the immediate needs that still exist, we 
meet today to look forward, to pay particular attention to 
decisions that are being made today, tomorrow, and next week 
and beyond, and how those decisions will impact the long-term 
recovery operation in Haiti. In particular, we will discuss 
issues that should be resolved with the March donors meeting at 
the United Nations in New York.
    Immediately following the earthquake, President Obama 
appointed Dr. Shah, the Administrator of USAID, to lead the 
response. I'm pleased that President Obama chose to have a 
civilian lead this effort, and, in--particularly that he chose 
USAID.
    In terms of disaster response, the United States, through 
the USAID Department and its Disaster Assistance Response 
Teams, actually have very strong systems in place to respond to 
disasters overseas. The DAR Team is often the first team on the 
ground to help assess needs and call in support, but clearly 
the scale and scope of the earthquake in Haiti has overwhelmed 
everyone. But, the United States did not wait to act. So, we 
appreciate Dr. Shah's ongoing work on this, and we look forward 
to his testimony to this committee at some point in the near 
future.
    We've all seen the outpouring of support for Haiti from 
countries around the region and around the world. From large 
corporate donations to private individuals who texted $10 from 
their cell phones, this has truly been a broad-based response.
    With a broad response come big resources. And with big 
resources comes big ideas. And with big ideas comes pressure to 
spend those resources and make those ideas a reality. Soon 
concrete will be poured, bricks will be laid, schools will be 
built, and land rights will take on a new urgency. As we know, 
decisions that are made after any disaster, decisions that are 
being made even today in Haiti, have a tendency to gel. So, 
before all the needs assessments are done, before the long-term 
plans are complete, before decisions that are made on the fly 
end up being the basis for policy, moving forward, we need to 
make sure that these decisions are taken by choice rather than 
by chance. For example, who will sift through and prioritize 
the wellspring of ideas that well-meaning governments, 
international agencies, and private organizations have for the 
future of Haiti? And, of course, the importance of Haiti, its 
government, and its people to be an intricate part of this. I 
think we all agree with President Clinton when he says we 
should help Haiti build back better. But, how do we organize 
our response to do this? How will reforestation or city 
planning be prioritized against water or roads? How can we 
prevent a new earthquake-resistant school from being built 
right next door to another new earthquake-resistant school? Few 
in this process are bad actors; we all want the best for the 
Haitian people. But, we should not underestimate the pressures 
from donors, governments, and private organizations to show 
results back at home, wherever ``back home'' happens to be for 
them.
    Of course, the Haitians should be in the lead. But, the 
question remains, Who plays the supporting role, and how do we 
organize our efforts? How should the United States and the rest 
of the international community work with the United Nations? 
How do we balance a separation between military and civilian 
efforts, but, at the same time, make sure they are well 
coordinated? What is the role of the Organization of American 
States, the World Bank, the Inter-American Development Bank, 
and other regional organizations? And while we all recognize, 
again, that Haitians should be in the lead, we also recognize 
that the institutions and leadership in Haiti, fragile before 
the earthquake, are maybe even more fragile today.
    Now, with government structures so devastated and the 
immediate needs so acute, the international community may be 
tempted to do for them instead of doing it with them. Such 
tradeoffs will not be easy, but the long-term goal is Haitian 
ownership of both the challenge and the solutions. This is the 
foreign policy interests of the United States and in the 
greater humanitarian interests of all of us who have been 
affected by this tragedy.
    We have three expert witnesses with us today to offer their 
views. First, we have Robert Maguire, the director of programs 
and international affairs at Trinity Washington University; 
Mark Schneider, who is a senior vice president at the 
International Crisis Group; and Charles MacCormack, president 
and CEO of Save the Children.
    I want to thank you all for your participation today. We 
look forward to a frank and provocative discussion, as well as 
a productive one.
    Before I turn to you for your testimony, let me recognize 
the distinguished ranking member of the committee, Senator 
Corker, for any remarks he may have.

             OPENING STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you. And I hope, 
always, if there's ever a delay after a vote, you always start 
without me, and I thank you for doing that today without--so 
that I don't feel badly being late and keeping our witnesses 
here.
    Thank you for your testimony. I'm going to listen to each 
of you, and not make any opening comments. I am catching a 
flight shortly thereafter, so, after you finish making your 
testimony, I probably will leave. We have some questions that 
we'll probably give you, if it's OK, for the record. But, I 
thank you very much for being here, for your efforts, and 
certainly for your testimony.
    Senator Menendez. Thank you, Senator.
    And with that, let me recognize each of you for 5 minutes 
or so. I'd ask you to summarize the essence of your written 
testimony. Your full written testimony will be included in the 
record.
    And we will begin with you, Mr. Maguire.

      STATEMENT OF ROBERT MAGUIRE, ASSOCIATE PROFESSOR OF 
INTERNATIONAL AFFAIRS, TRINITY WASHINGTON UNIVERSITY, AND CHAIR 
  OF THE HAITI WORKING GROUP OF THE U.S. INSTITUTE OF PEACE, 
                         WASHINGTON, DC

    Mr. Maguire. Thank you. And thank you for inviting me to 
testify today. I appreciate this opportunity to share my 
thoughts.
    My testimony is called ``Reconstruct to Rebalance Haiti.'' 
And I should say that, in the five decades that I've traveled 
to Haiti, I've seen the country become terribly out of balance. 
Much of this revolves around the unnatural growth of Haiti's 
cities, especially what Haitians call the Republic of Port-au-
Prince, and a parallel ferocious neglect of the rest of Haiti, 
particularly its rural economy and people. I have outlined the 
progression and results of this in my written testimony.
    Because of unmitigated off-the-land migration with poor 
people piling on top of each other on steep hillsides and in 
dangerous ravines, river flood plains, and coastal mudflats, 
seeking opportunities that were mostly a mirage, Port-au-Prince 
had become a disaster waiting to happen. Those who perished on 
January 12 were mostly poor people crowded on marginal land and 
into substandard housing devastated by the quake.
    The vast majority of the thousands who died in the floods 
in Gonaives in 2004 and 2008 were poor people crowded on 
alluvial costal mudflats in the river flood plains.
    Haiti had lost its balance in social and economic equity 
and in the ability of the state to care for its citizens. By 
2007, 68 percent of the total national income went to the 
wealthiest 20 percent of the population, Haitian state 
institutions had virtually collapsed under the weight of bad 
governance since the Duvalier era.
    International balance was off, too. In recent times, donors 
have chosen mostly to bypass even democratically elected 
governments and funnel aid funds through foreign-based NGOs and 
enact projects drawn up outside of Haiti and that lasted only 
as long as the money did. By the 1990s, Haitians were 
derisively calling their country a Republic of NGOs, and by 
2008, none other than the president of the World Bank lamented 
the cacophony of feel-good flag-draped projects that had proven 
a vastly inadequate substitute for a coherent national 
development strategy.
    Now is an opportunity to help Haitians restore balance to 
their country. I have five recommendations, based upon my 
experience in Haiti and years of discussions and conversations 
with Haitian counterparts.
    One, encourage decentralization by welcoming dislocated 
persons. At least 500,000 people have now fled Port-au-Prince, 
returning to towns and villages from which they had migrated 
and where they have family. This flight can be a silver lining 
in today's very dark cloud, but we must catch up with and get 
ahead of this movement. If conditions in the countryside, 
already poor, are not improved, the displaced will ultimately 
return to Port-au-Prince to replicate the dangerous dynamics of 
earlier decades.
    To catch up and reverse this migration, we should support 
the idea proffered by the Haitian Government in Montreal last 
week: reinforce 200 decentralized communities. And these 
communities' welcome centers can offer multiple services, 
including relief in the short term, with education and health 
facilities attached.
    The reverse migration we are seeing today offers a golden 
opportunity to rebalance the education and health system of 
Haiti and to help the rural economy grow. In that regard, the 
centers can coordinate investment and employment opportunities, 
as well as state services, including robust agronomic 
assistance to farmers.
    No. 2, support the creation of a national civic service 
corps. The institutional piece of this decentralization can be 
a national civic service corps. Since 2007, Haitian authorities 
have been working on the prospect of creating such an entity. 
Now's the time for it to take off.
    A 700,000-strong corps will rapidly harness untapped labor 
in rural and urban settings to rebuild Haiti's infrastructure, 
undertake environmental rehabilitation, increase productivity, 
and restore dignity and pride through meaningful work. It will 
also form a natural disaster response mechanism. If this all 
sounds familiar, it should. This thinking parallels the 
thinking that went into the creation of such New Deal programs 
as the WPA and the CCC.
    No. 3, strengthen Haitian state institutions through 
accompaniment, cooperation, and partnership. At the hearing on 
Haiti last week, witnesses spoke of the need to rebuild the 
Haitian state from the bottom up and of working with Haitian 
officials, not pushing them aside. I agree wholeheartedly. This 
is an opportunity to strengthen Haiti's public institutions.
    The capacity of the Haitian state has deteriorated 
progressively over the past 50 years. We've seen that in past 
weeks with the already weak state that can hardly respond to 
this calamity.
    It's easier to kick someone in the teeth when he or she is 
already on the mat. Rather than swinging our foot at the 
Government of Haiti, however, we should offer our hand. This is 
the time of the government's greatest need. Over the past 4 
years, Preval has won praise internationally, and among most in 
Haiti, over improved management of the affairs of the state. We 
were looking for a new paradigm at the donor's conference of 
partnership. Let's stay that course. Generations of bad 
government and zero-sum political culture are not turned around 
overnight.
    No. 4 of my five, get money into the hands of poor people. 
Two recommendations. Let's stimulate Haiti's bottom-up 
capitalism to rebuild the country through small loans to 
entrepreneurs, especially those who produce something, 
including farmers. The government studies indicate that a 10-
percent increase in man hours on farms will create 40,000 jobs. 
Implement a conditional cash transfer program for Haiti. These 
programs transfer cash to poor, conditioned upon their children 
attending schools and clinics. Mexico and Brazil have succeeded 
in assisting millions of poor families improve standards of 
living, while sending their children to schools and clinics.
    Importantly, CCT programs provide the government with the 
challenge and opportunity of being a positive presence in the 
lives of citizens. This is essential in Haiti as a means of 
enabling the government to demonstrate, therefore, that there 
are tangible fruits of democratic governance. You vote, you get 
something back for it.
    The last recommendation is to seek out and support 
institutions, businesses, leaders who work toward greater 
inclusion, lesser inequality, and enact socially responsible 
investment strategies.
    So, what about hope and its potential benefits? Beyond 
doubt, factory jobs should be a part of Haiti's future. Three 
important points must be kept in mind, however, if this job 
creation strategy is to be a plus in helping Haiti to rebalance 
and build back better.
    First, universal free education and rural investment must 
robustly parallel factory investments. Decentralized 
agrobusiness possibilities, and the jobs and infusion of cash 
they bring to the Haitian economy, cannot be ignored.
    Second, assembly plants cannot be concentrated in Port-au-
Prince. Haiti has at least a dozen coastal cities with already 
functioning, albeit rudimentary, infrastructures where ports 
can be built. Decentralization into these towns and cities will 
rebalance prospects for economic growth and infrastructure 
development to all of Haiti.
    And third, investors, owners, and managers must be mindful 
of the fact that Haitian workers are more than plentiful cheap 
labor. As Secretary of State Clinton said at the April donor's 
conference, ``Talent is universal, opportunity is not.'' A key 
to Haiti's renaissance is to improve the opportunity 
environment for all. Haiti's diaspora offers bountiful evidence 
of what can be achieved when opportunities are twinned with 
talent.
    In conclusion, if there is a silver lining in the deep, 
dark cloud of Haiti's recent catastrophe, it is that this may 
offer all of us--Haitians, friends of Haiti, and those whose 
connection with Haiti may simply be as a bureaucrat or an 
investor--an opportunity to learn from mistakes and take steps 
that will rebalance the country. If rebalanced, Haiti can move 
forward unequivocally toward less poverty and inequity, 
diminished social and economic exclusion, and greater human 
dignity, a rehabilitated environment, stronger public 
institutions, and a national infrastructure for economic growth 
and investment.
    Thank you.
    [The prepared statement of Mr. Maguire follows:]

 Prepared Statement of Robert Maguire, Ph.D., Director of Programs in 
  International Affairs, Trinity Washington University, Washington, DC

    Thank you for inviting me to testify today.
    My first visit to Haiti was in 1974. My first full day in Haiti was 
the day that Haiti's National Soccer Team scored the incredible goal 
against Italy in the World Cup. That may not mean much to Americans, 
but to Haitians it means everything. I have come to take this 
coincidence as a sign that there was bound to be some kind of 
unbreakable bond between Haiti and me. And that came to pass.
    My most recent visit ended on January 10, 2010, two days before the 
earthquake. In between, I have visited Haiti more than 100 times, as a 
U.S. Government official working with the Inter-American Foundation and 
the Department of State; as a scholar and researcher, and as a friend 
of Haiti and its people. I have traveled throughout that beautiful, if 
benighted, land. I have met and broken bread with Haitians of all walks 
of life. I have stayed at the now-destroyed Montana Hotel. I had dinner 
there 5 days before the quake, chatting with waiters and barmen I had 
befriended over the years. I speak Creole. I have lost friends and 
colleagues in the tragedy. I am anxious to share my views and ideas 
with you.
    In the deep darkness of the cloud cast over Haiti by the terrible 
tragedy of January 12 there is an opportunity for the country and its 
people to score another incredible goal, not so much by reconstructing 
or rebuilding, but by restoring a balance to achieve a nation with less 
poverty and inequity, improved social and economic inclusion, greater 
human dignity, a rehabilitated environment, stronger public 
institutions, and a national infrastructure for economic growth and 
investment. And, if that goal is to be scored, relationships between 
Haitians and outsiders also will have to be rebalanced toward 
partnership and respect of the value and aspirations of all Haiti's 
people.
                        a country out of balance
    In the five decades that I have traveled to Haiti, I have seen the 
country become terribly out of balance. Much of this revolves around 
the unnatural growth of Haiti's cities, especially in what Haitians 
call ``the Republic of Port-au-Prince.'' In the late 1970s, Haiti's 
rural to urban demographic ratio was 80 percent to 20 percent. Today it 
is 55 percent to 45 percent. The earlier ratio reflected what had been 
chiefly an agrarian society since independence. The population of Port-
au-Prince in the late 1970s was a little over 500,000--already too many 
people to be adequately supported by the city's physical 
infrastructure. By then Haitians from the countryside had already begun 
trickling into the capital city, as a result Dictator Francois ``Papa 
Doc'' Duvalier's (1957-1972) quest to centralize his grip on power. 
Under Papa Doc, a ferocious neglect beyond PAP took place, as ports in 
secondary cities languished, asphalted roads disintegrated and, in some 
cases, were actually ripped up, and swatches of the countryside were 
systematically deforested under the guise of national security or by 
way of timber extraction monopolies granted to Duvalier's cronies. 
Small farmers were ignored as state-supported agronomists sought office 
jobs in the capital.
    The only state institutions present in the countryside were army 
and paramilitary (Tonton Makout) posts and tax offices--which enforced 
what rural dwellers told me was a `squeeze--suck' (pese--souse) system 
of state predation. With wealth, work, and what passed for an education 
and health infrastructure increasingly concentrated in Port-au-Prince 
(PAP), it was no wonder that poor rural Haitians had begun to trickle 
off the land into coastal slums with names like ``Boston'' and ``Cite 
Simon'' (named after Papa Doc's wife), and onto unoccupied hillsides 
and ravines within and surrounding the city.
    The trickle turned into a flood in the early 1980s when the 
rapacious regime of Jean-Claude ``Baby Doc'' Duvalier (1972-1986) 
yielded to Haiti's international ``partners''--governments, 
international financial institutions, and private investors--who had 
set their sights on transforming Haiti into the ``Taiwan of the 
Caribbean.'' Political stability under the dictatorship combined with 
ample cheap labor and location near the United States formed a 
triumvirate that shored up this idea, and the ``Tawanization'' of Haiti 
proceeded, creating by the mid-1980s somewhere between 60K and 100K 
jobs in assembly factories, all located within PAP. Fueled by a 
parallel neglect of Haiti's rural economy and people, the prospect of a 
job in a factory altered the off-the-land trickle into a flood, as 
desperate families crowded the capital in search of work and the 
amenities--education, especially--that the city offered. Between 1982 
and 2008, Port-au-Prince grew from 763,000 to between 2.5 and 3 
million, with an estimated 75,000 newcomers flooding the city each 
year.\1\
---------------------------------------------------------------------------
    \1\ Robert Maguire, ``Haiti After the Donors' Conference: A Way 
Forward,'' United States Institute of Peace, Washington DC, Special 
Report 232, September 2009.
---------------------------------------------------------------------------
    As immigrants piled up in slums, on deforested and unstable 
hillsides, and in urban ravines, the opportunity offered by the city 
became a mirage. Following the ouster of Duvalier in 1986 when, as 
Haitians say, ``the muzzle had fallen'' (babouket la tonbe) and freedom 
of speech and assembly returned, factory jobs began to dry up as 
nervous investors sought quieter, more stable locations. By the 1990s, 
only a fraction of those jobs remained. Yet the poor continued to flow 
into the city.
    Papa Doc's centralization, combined, under the rule of Baby Doc, 
with the urban-centric/Taiwanization policies of key donor countries 
(including the U.S.) and international banks had a devastating impact 
on Haiti. Enacted by a government and business elite who saw these 
policies as a golden opportunity to make money, the internationally 
driven Tawanization of Haiti neglected what Francis Fukuyama has 
pointed out as the key to Taiwan's own success: a necessary investment 
in universal education and agrarian improvement before investing in 
factories.\2\ Haiti's people were viewed internationally and by local 
elites strictly as pliant and ample cheap labor. Education might make 
them ornery. Avoid it. Why invest in agriculture when cheaper food--
heavily subsidized imported flour and rice--could feed Haiti's growing 
urban masses? In the late 1970s Haiti did not need to import food. 
Today, it imports some 55 percent of its foodstuff, including 360,000 
metric tons of rice annually from the United States.\3\
---------------------------------------------------------------------------
    \2\ Francis Fukuyama, ``Poverty, Inequality and Democracy: The 
Latin American Experience,'' Journal of Democracy 19, no. 4 (October 
2008).
    \3\ Op.cit, Maguire, ``Haiti After the Donor's Conference.''
---------------------------------------------------------------------------
    The folly of these policies was seen in early 2008, during the 
global crisis of rapid and uncontrolled commodity price increase, when 
that rice, still readily available, was no longer cheap and the urban 
poor took to eating mud cookies to survive. Another spinoff of these 
fallacious policies of the 1980s was political instability. Poor 
Haitians took to the streets in early 2008 to protest ``lavi che'' (the 
high cost of living), with the result being the ouster of the 
government headed by Prime Minister Jacques Edouard Alexis who, 
coincidentally, had just won praise from the United States and the 
International Financial Institutions (IFIs) for the creation of a 
national poverty reduction and economic growth strategy that would 
serve as a blueprint for developing all of Haiti, and reversing the 
long history of rural neglect.
    Rural neglect combined with migration to cities, moreover, placed 
considerable pressure on those still in the countryside to provide the 
wood and charcoal the burgeoning urban population required. Here was a 
recipe for desperately poor people to further ravish the environment. 
Today, 25 of Haiti's 30 watersheds are practically devoid of vegetative 
cover.
    Port-au-Prince, and other cities, particularly Gonaives, had become 
disasters waiting to happen as a result of these developments. The vast 
majority of the 200,000 who perished on January 12 were poor people 
crowded on marginal land and into substandard housing devastated by the 
quake. The vast majority of the thousands who died in the floods in 
Gonaives in 2004 and 2008 were poor people crowded on alluvial coastal 
mud flats and in river flood plains. For Haiti's poor, their country 
has become a dangerous place and a dead end. Is it surprising that 
Haitians seek any opportunity to look for life (cheche lavi) elsewhere? 
As one peasant told me in the 1990s, ``we have only two choices: die 
slow or die fast. That's why we take the chance of taking the boats (to 
go to Miami)'' (pwan kante).
    Haiti had lost its balance in other ways, particularly in social 
and economic equity, and in the ability of the state to care for its 
citizens. By 2007, 78 percent of all Haitians--urban and rural--
survived on $2 a day or less, while 68 percent of the total national 
income went to the wealthiest 20 percent of the population.\4\ During 
the 29-year Duvalier dictatorship, Haitian state institutions virtually 
collapsed under the weight of bad governance. Following the 1986 ouster 
of Baby Doc, who, ironically, was lorded with foreign funds that went 
principally to Swiss bank accounts, donors were loathe to work with 
successor governments--including those democratically elected. Instead, 
they chose to funnel hundreds of millions annually through foreign-
based NGOs that enacted ``projects'' drawn up in Washington, New York, 
Ottawa, etc., and that lasted only as long as the money did. Haitians, 
by the early 1990s, were derisively calling their country a ``Republic 
of NGOs'' and by 2008, none other than the President of the World Bank, 
Robert Zoellick, lamented the cacophony of ``feel good, flag-draped 
projects'' that had proven a vastly inadequate substitute for a 
coherent national development strategy.\5\
---------------------------------------------------------------------------
    \4\ Maureen Taft-Morales, ``Haiti: Current Conditions and 
Congressional Concerns,'' Congressional Research Service Report for 
Congress, May 5, 2009.
    \5\ Robert Zoellick, ``Securing Development'' (remarks at the 
United States Institute of Peace conference titled ``Passing the 
Baton,'' Washington, DC, January 8, 2009.
---------------------------------------------------------------------------
    Without doubt, Haiti was seriously out of balance before the 
earthquake and Port-au-Prince was a disaster waiting to happen. Many 
had feared that it would come by way of a hurricane; rather the earth 
shook. Now, let us see how we might make a positive contribution in 
restoring balance to Haiti so that when, inevitably, the country is 
struck by another natural disaster--be it seismic or meteorological--it 
is less vulnerable and better able to confront and cope with the 
disaster.
                  rebalancing to ``build back better''
    Allow me to stress two points: We must be fully cognizant of past 
mistakes, such as those outlined above; and the key to ``building Haiti 
back better'' is to work toward a more balanced nation with less 
poverty and inequities, less social and economic exclusion, greater 
human dignity, and a commitment of Haitians and non-Haitians toward 
these essential humanistic goals. With this, Haiti can also achieve and 
sustain a rehabilitated natural environment, stronger public 
institutions, a national infrastructure for growth and investment, and 
relationships between Haitians and outsiders that are based on 
partnership, mutual respect, and respect of the value and aspirations 
of all Haiti's people.
    What follows are ideas and recommendations based on not only my 
experience in Haiti, but on endless discussions/conversations with 
Haitian interlocutors. In this regard, I should add that the principal 
reason for my visit to Port-au-Prince in early January was to deliver 
an address on prospects for rebalancing Haiti. That presentation was 
made to an audience of 50 or so Haitian civil servants and policy 
analysts--some of whom I fear are no longer with us--who gathered in 
Port-au-Prince at a Haitian think tank. My ideas were received by them 
with great, and at times animated, interest.
1. Welcoming dislocated persons: A de facto decentralization
    Since the quake, some 250,000 Port-au-Prince residents have fled 
the city, returning to towns and villages from which they had migrated 
or where they have family. An estimated 55,000 have shown up in Hinche 
in Haiti's Central Plateau; the population of Petite Riviere de 
l'Artibonite has swelled from 37,000 to 62,000; St. Marc's 60,000, has 
swollen to 100,000.\6\ The flight of Haitians away from a city that now 
represents death, destruction, and loss might become a silver lining in 
today's very dark cloud. If that is to be the case, however, we--both 
the Government of Haiti and its international partners--must catch up 
with and get ahead of this movement. Already underdeveloped rural 
infrastructures and the resources of already impoverished rural 
families are being stretched. The provision of basic services to these 
displaced populations is an urgent priority. If conditions in the 
countryside are not improved, the displaced will ultimately return to 
Port-au-Prince, to replicate the dangerous dynamics of earlier decades.
---------------------------------------------------------------------------
    \6\ Trenton Daniel, ``Thousands Flee Capital To Start Anew,'' Miami 
Herald, January 23, 2010; Mitchell Landsberg, ``The Displaced Flow Into 
a Small Haitian Town,'' Los Angeles Times, February 1, 2010; data from 
MINISTAH headquarters in Hinche.
---------------------------------------------------------------------------
    To catch up and get ahead of this reverse migration, we should 
support an idea proffered by the Government of Haiti in Montreal last 
week: the reinforcement of 200 decentralized communities. As soon as 
possible, ``Welcome Centers'' might be stood up in towns and villages. 
They can be temporary, to be made permanent later. They can serve as 
decentralized ``growth poles'' that offer multiple services, including 
relief in the short term, with health and education facilities 
attached. Let us not forget that Haiti has lost many of its schools and 
among those fleeing the devastated city are tens of thousands of 
students. Twenty five percent of Haitian rural districts do not have 
schools. And schools that exist outside Port-au-Prince are usually 
seriously deficient. The reverse migration we are seeing today offers a 
golden opportunity to rebalance the education and health system of 
Haiti.
    The centers can coordinate investment and employment opportunities, 
as well as state services including robust agronomic assistance to 
farmers. Haiti's planting season is almost here and now more than ever 
the country needs a bountiful harvest. Displaced people working as paid 
labor can reinforce Haiti's farmers. Infrastructure needs to be 
rebuilt--or built for the first time--including schools, health 
clinics, community centers, roads, bridges and drainage canals. 
Hillsides need rehabilitation, particularly with vegetative cover and 
perhaps even stone terraces. Providing work for not just the displaced, 
but to those they are joining in towns and villages throughout Haiti, 
will go a long way toward rebalancing Haitian economy and society, and 
toward repairing a social fabric ripped to shreds by decades of neglect 
and subsequent migration. This is an opportunity that must be seized.
2. Support the creation of a National Civic Service Corps
    Since 2007, various Haitian Government officials and others have 
been working quietly on the prospect of creating a Haitian National 
Civic Service Corps. Citizen civic service is mandated in Article 52-3 
of the Haitian Constitution and, even before the quake, the idea of a 
civic service corps to mobilize unemployed and disaffected youth seemed 
attractive. Now is the time for this idea to take off. As I have 
recently written, a 700,000-strong national civic service corps will 
rapidly harness untapped labor in both rural and urban settings, 
especially among Haiti's large youthful population, to rebuild Haiti's 
public infrastructure required for economic growth and environmental 
rehabilitation and protection; increase productivity, particularly of 
farm products; restore dignity and pride through meaningful work; and 
give Haitian men and women a stake in their country's future. It will 
also form the basis of a natural disaster response mechanism.\7\
---------------------------------------------------------------------------
    \7\ Robert Maguire and Robert Muggah, ``A New Deal-Style Corps 
Could Rebuild Haiti,'' Los Angeles Times, January 31, 2010.
---------------------------------------------------------------------------
    If this all sounds familiar, it should: The idea of a Haitian 
National Civic Service Corps parallels the same thinking that went into 
the creation of such New Deal programs as the Works Progress 
Administration (WPA) and the Civilian Conservation Corps (CCC). We have 
seen what these programs did to help the United States and its people 
stand up during a difficult time.
    In the aftermath of the storms that devastated Haiti in 2008, 
Haitian President Preval asked not for charity, but for a helping hand 
to allow Haitians to rebuild their country. Today he is making a 
similar point. Here is more symmetry between the Haiti and the United 
States. As Harry Hopkins, the legendary administrator of the Works 
Progress Administration, pointed out: ``most people would rather work 
than take handouts. A paycheck from work didn't feel like charity, with 
the shame that it conferred. It was better if the work actually built 
something. Then workers could retain their old skills or develop new 
ones, and add improvements to the public infrastructure like roads and 
parks and playgrounds.'' \8\ Let's help Haiti restore its balance by 
supporting a national civic service corps that can accomplish the same 
for Haiti and its people as our New Deal programs did in the United 
States decades ago.
---------------------------------------------------------------------------
    \8\ Nick Taylor, ``American Made: The Enduring Legacy of the WPA,'' 
(New York: Bantam Books, 2008), p.99.
---------------------------------------------------------------------------
    To reiterate, as was the case with our New Deal, Haiti's civic 
service corps must be a ``cash-for-work'' initiative. Cash for work 
will inject serious liquidity into the Haitian economy and stimulate 
recovery from the bottom up. Already there are various entities 
employing Haitians in a variety of cash-for-work programs. This Monday, 
for example, the UNDP announced that it has enrolled 32,000 in a cash-
for-work rubble removing program; a number expected to double by 
tomorrow.\9\ Coordination of existing efforts within an envisaged 
national program will be essential to maximizing how Haiti can be built 
back better--by its own people, with everyone wearing the same uniform.
---------------------------------------------------------------------------
    \9\ UNDP, ``Fast Fact of the Week,'' accessed on February 2, 2010 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="01746f65712f76607269686f66756e6f41">[email&#160;protected]</a>
undp.org.
---------------------------------------------------------------------------
    A special commission, similar to those established by President 
Preval in 2007 to engage Haitians from diverse sectors to study and 
make recommendations on key issues confronting his government, might be 
established to oversee this coordination. (Other special commissions 
could be mounted to tackle other topics or needs and as a means of 
expanding the Haitian Government's human resource circle.) Such a 
commission could be enlarged to include representatives of key donors. 
A central figure like Harry Hopkins will have to lead the endeavor. 
Perhaps such a figure could emerge from Haiti's vaunted private sector. 
In any case, let's avoid a repetition of the cacophony of feel good, 
flag-draped projects.
3. Strengthen Haitian state institutions through accompaniment, 
        cooperation and partnership
    At the Senate Foreign Affairs Committee hearing on Haiti held last 
week, witnesses spoke of the need to rebuild the Haitian state from the 
bottom up, and of working with Haitian officials--not pushing them 
aside. I agree with these points whole-heartedly. This is not the time 
to impose governance on Haiti--that is a 19th century idea unfit for 
the 21st century. This is an opportunity to help strengthen Haiti's 
public institutions, not to replace them.
    As pointed out above, the capacity of the Haitian state, never 
strong to begin with, has deteriorated progressively over the past 50 
years. In recent years that was due in part to international policies 
that circumvented state institutions in favor of private ones--both 
within Haiti and from beyond, and left the resource-strapped government 
virtually absent in the lives of its citizens. In the aftermath of the 
quake, we see starkly the results of the decimation of the Haiti state. 
The already weak state has been further set back by the death of civil 
servants and the loss of state facilities and physical resources. In 
this context, the government of President Rene Preval and Prime 
Minister Jean Max Bellerive has taken much criticism for its response--
or lack thereof--in the past few weeks.
    It is easy to kick someone in the teeth when he or she is already 
on the mat. Rather than swinging our foot, however, we should offer our 
hand. This is the time of the Haitian Government's greatest need. 
Achieving cooperation and partnership, as pointed out by Canadian Prime 
Minister Harper at the recently held Montreal Conference, is the 
biggest concern.\10\ Over the past 4 years, the Preval government has 
won praise internationally--and among most in Haiti--over its improved 
management of the affairs of the state. Political conflict, though 
still extant, has diminished considerably. Haiti's terribly polarized 
society is a little less polarized today. Moderation and greater 
inclusion--not demagoguery and a winner-takes-all attitude--have worked 
their way into the ethos of the Haitian political culture. Partnership 
to strengthen the Haitian state was on the horizon following the ``new 
paradigm for partnership'' agreed to at the April 2009 Donors 
Conference.\11\ Let's stay that course. Generations of bad governance 
and a zero sum political culture are not turned around overnight.
---------------------------------------------------------------------------
    \10\ CTV.ca News Staff, ``Foreign Ministers Vow To Be `partners' 
with Haiti,'' accessed on January 30, 2010, at www.http://
ottawa.ctv.ca/servlet/an/plocal/CTVNews/20100125/Haiti_confer-
ence_100125/2010.
    \11\ Government of Haiti, ``Vers un Nouveau Paradigme de 
Cooperation,'' April 2009.
---------------------------------------------------------------------------
    Quietly, but steadily in the post-quake period, the Haitian 
Government has been picking itself up by its bootstraps beyond the 
photo-ops and glare of the cameras to reassemble, and then to reassert, 
itself.\12\ Still, given the magnitude of this catastrophe, the 
government is overmatched. Any government would be. This is not the 
time to cast aspersions. It is the time to work in partnership and to 
accompany Haitian leaders through their time of loss and sorrow, into a 
more balanced and better future.
---------------------------------------------------------------------------
    \12\ Jacqueline Charles, ``Haiti President Rene Preval Quietly 
Focuses on Managing Country,'' Miami Herald, February 2, 2010.
---------------------------------------------------------------------------
4. Get money into the hands of poor people
    In 1999, Peruvian economist Hernando de Soto estimated that there 
was $5.2 billion in ``dead capital'' in Haiti, shared among 82 percent 
of the population. Of this sum, $3.2 billion was located in rural 
Haiti. This amount dwarfed by four times the total assets of Haiti's 
123 largest formal enterprises.\13\ This capital, principally in the 
hands of poor people in the form of property, land, and goods, is 
considered ``dead'' because it cannot be used to leverage further 
capital for investment and growth. To free it up, clear titling would 
be required along with a reduction of redtape and corruption, and a 
brand new attitude toward Haiti's most vibrant form of capitalism--its 
informal economy--and the poor entrepreneurs who make it work. 
Doubtless, you have seen post-quake stories of how Haiti's grassroots 
entrepreneurs began rebounding within days.
---------------------------------------------------------------------------
    \13\ Hernando de Soto, ``The Mystery of Capital'' (New York: Basic 
Books, 2000).
---------------------------------------------------------------------------
    A key to Haiti's recovery--and, yes, to its rebalancing--is to get 
capital into the hands of grassroots entrepreneurs--be they still in 
Port-au-Prince or elsewhere in the country. Formalizing dead capital--
which will be a long, tedious and conflictive path, but one that 
perhaps can be facilitated now through such steps as the issuance of 
provisional land and property titles that subsequently are fully 
formalized--is but one way of getting liquid assets into poor people's 
hands. Others, more expeditious, include:

  <bullet> More small loans (microcredit) to entrepreneurs, 
        particularly those who produce something, including farmers. 
        Farmers with capital will not just produce more food, but will 
        increase employment. Government studies indicate that a 10 
        percent increase in man-hours on farms will create 40,000 new 
        jobs.\14\ One strong candidate to improve microcredit 
        throughout Haiti is an organization called FONKOZE. With more 
        than 33 branches countrywide, it serves some 175,000 members, 
        mostly among those who make--or made prior to their engagement 
        with microcredit--$2 a day or less. FONKOZE also facilitates 
        the efficient and lower cost decentralizing of the flow of 
        funds sent to Haiti from family abroad.
---------------------------------------------------------------------------
    \14\ Government of Haiti, ``Rapport d'evaluation des besoins apres 
desastre Cyclones Fay, Gustav, Hanna et Ike,'' November 2008.
---------------------------------------------------------------------------
  <bullet> Haiti must now benefit from a conditional cash transfer 
        (CCT) program. Brilliantly popular in such places as Mexico and 
        Brazil, CCT programs serve as a means of transferring cash to 
        the poorest of the poor, conditioned upon the children of poor 
        families attending quality schools and fully operational 
        clinics. Mexico's program is largely rural; Brazil's more 
        urban-oriented. In both cases, they have succeeded in assisting 
        millions of poor families improve living standards while 
        sending their children to schools and clinics. As such, CCTs 
        have invested in future human resources. Such a program in 
        Haiti could accomplish these goals, but only if Haiti's 
        educational and health systems are extended into rural areas 
        (helping to rebalance) and upgraded in existing locations 
        (helping to rebuild). Importantly, CCT programs provide the 
        government with the challenge/opportunity of being a positive 
        presence in the lives of citizens. In Haiti, this is essential 
        as a means of enabling the government to move from being 
        largely absent to being positively present in the lives of 
        citizens, and to demonstrate therefore that there are tangible 
        fruits of democratic governance.
5. Seek-out and support institutions, businesses, and leaders who work 
        toward greater inclusion, less inequality, and enact socially 
        responsible strategies for investing in Haiti
    One cannot discuss the future of Haiti without considering the 
prospect of external investment to create factory jobs, particularly in 
view of the HOPE II legislation and its potential benefits. Beyond any 
doubt, factory jobs should be a part of Haiti's future. Already, some 
of the assembly plants in Port-au-Prince are back in operation, to the 
satisfaction of both owners and workers.\15\ In this regard, support 
should be given to the ``Renewing Hope for Haitian Trade and Investment 
Act for 2010'' introduced by Senators Wyden and Nelson. But, as this 
legislation is considered, three important points must be kept in mind 
if this job creation strategy is to be a plus in helping Haiti to 
rebalance, ``build back better'' and avoid mistakes of the past.
---------------------------------------------------------------------------
    \15\ Jim Wyss and Jacqueline Charles, ``Workers Flock to Clothing 
Factories as Industrial Park Reopens,'' Miami Herald, January 27, 2010.
---------------------------------------------------------------------------
    First, the fiasco of the 1980s ``Taiwanization'' period must not be 
repeated. Universal free education and rural investment are important, 
and though they will not precede assembly investment, they must 
robustly parallel it and eventually get ahead of it. Investment in 
Haiti should not ignore decentralized agribusiness possibilities and 
the economic growth and development it can bring through jobs and the 
infusion of cash into the Haitian economy.
    Second, assembly plants cannot be concentrated largely in Port-au-
Prince. If nothing else, the shattered infrastructure of the city 
should serve as an incentive for decentralization. Haiti has at least a 
dozen coastal cities that either already have a functioning, albeit 
usually rudimentary, infrastructure or where a port and support 
infrastructure can be built--perhaps at a lower costs than Port-au-
Prince. Decentralization to coastal cities and towns offers Haiti and 
investors an opportunity to undo the damage begun 50 years ago by Papa 
Doc's insidious centralization in Port-au-Prince and to rebalance the 
prospects for economic growth and infrastructure development (including 
electricity) to all of Haiti.
    Third, investors, owners and managers must be mindful of the fact 
that Haitian workers are more than plentiful cheap labor. As Secretary 
of State Clinton said at the April Donors' Conference, ``talent is 
universal; opportunity is not.'' \16\ A key to Haiti's renaissance is 
to improve the opportunity environment for all of its people. Haiti's 
diaspora offers bountiful evidence of what can be achieved when 
opportunities are twinned with talent.
---------------------------------------------------------------------------
    \16\ Hillary Rodham Clinton, ``Remarks at the Haiti Donors 
Conference,'' April 14, 2009, accessed on February 2 at http://
www.state.gov/secretary/rm/2009a/04/121674.htm.
---------------------------------------------------------------------------
    Jeffry Sachs has equated factory jobs in Bangladesh with the first 
rung on a ladder toward greater opportunity and development.\17\ In 
Haiti, however, the ladder for most factory workers, in view of their 
survival wages juxtaposed with a constantly increasing cost of living 
and the absence of any public social safety net, has a single rung. 
Haiti's opportunity environment will be improved considerably:
---------------------------------------------------------------------------
    \17\ Jeffry Sachs, ``The End to Poverty: Economic Possibilities for 
Our Times,'' (New York: Penguin Press, 2005).

  <bullet> If investors, owners, and mangers recognize that Haiti's 
        workers have legitimate aspirations to improve their lives, and 
        their honest days' work should be means for that, and;
  <bullet> If investors, owners and managers follow that recognition 
        with actions that demonstrate socially responsible investing 
        and public-private partnerships that improve workers status and 
        conditions, and;
  <bullet> If the Haitian state has the strength and resources to 
        become and remain a positive presence in workers lives by 
        providing services to them and their children, particularly in 
        education, health, and safety from gangs and other criminal 
        elements whose activities are often financed by narcotics 
        trafficking.

    If there is a silver lining in the deep dark cloud of Haiti's 
recent catastrophe, it is that this offers all of us--Haitians, 
``friends of Haiti'' and those whose connection with Haiti may simply 
be as a bureaucrat or investor--an opportunity to learn from mistakes 
made in the relatively recent past and take steps that will rebalance 
that country so that it will move forward unequivocally toward less 
poverty and inequity, diminished social and economic exclusion, greater 
human dignity, a rehabilitated environment, stronger public 
institutions, and a national infrastructure for economic growth and 
investment.

    Senator Menendez. Thank you.
    Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you, Mr. Chairman, Senator Corker, 
particularly for holding these hearings on Haiti after much of 
its capital and other cities were destroyed. And I think it's 
important to recognize that this is the worst natural disaster 
that's ever occurred in the Western Hemisphere, in terms of the 
number of lives lost. And in terms of percentage of population, 
I suspect, in the end, it may well be one of the worst 
worldwide.
    Let me join the chairman in expressing, on behalf of the 
Crisis Group, our deep condolences for those who lost their 
lives in Haiti. I've been going back and forth to Haiti since 
1978, and all I can say is that there are many faces that I 
will miss when I go back again.
    And let me also express the same sympathy for members of 
the international community, particularly the United Nations, 
which was hit so hard by the earthquake. It lost its chief, 
Hedi Annabi. Ironically, just before Christmas, I met with Hedi 
and the other members of his staff to analyze what 2010 would 
bring to Haiti.
    The important questions that you raised at the outset, in 
terms of planning and managing and implementing the 
reconstruction, have to be a primary focus for decisionmakers 
throughout the world. This, it seems to me, is a time to 
examine the lessons learned from past efforts at 
reconstruction, both with respect to natural disaster, as you 
mentioned, the tsunami in Asia as well as Hurricane Mitch here 
in Central America, as well as post-conflict experiences with 
reconstruction. It seems to me that we know, now, victims never 
believe that relief is coming as fast as it's needed. And 
they're right. Transition from relief to reconstruction is 
rarely smooth. Maintaining international engagement beyond the 
relief phase and assuring that international coordination 
occurs effectively are constant struggles.
    And one of the most important--and it's been mentioned in 
the discussion already--is seeing as a goal the strengthening 
of the host government at the end of the reconstruction 
process. And we frequently don't achieve that.
    The mantra, which still bears repeating, is that one must 
help Haiti build back better to leave it less vulnerable to the 
next disaster. The Crisis Group's last report was ``Saving the 
Environment, Preventing Instability and Conflict,'' and it 
dealt with several of these issues. And it also saw Haiti's 
vulnerability, not merely in terms of the physical 
vulnerability, but also in terms of the vulnerability of its 
institutions, given two centuries of bad government, highly 
centralized economic and political power structures, and less 
than benign foreign interventions.
    And one point that I would emphasize is that, contrary to 
those who say nothing ever works in Haiti, aid does not work at 
all, the fact is, over the last 4 years, we have seen progress. 
With the United Nations peacekeeping force in Haiti and with 
the decisions of the Preval administration, in terms of 
reforms, we really were seeing progress in several areas. 
Police, justice, prison reforms had begun. Lots of problems, 
but there was a beginning.
    Politically, you had the full Parliament. Relatively few 
times in the past decade and a half did you have both of the 
major sectors of the Haitian Government functioning. You had, 
as a result of HOPE and HOPE-II, an increase of jobs to 
somewhere like 25 or 30,000 over the last 2 years. And I should 
add, between 2004 and 2009, Haiti's GDP rose from about $4 
billion to $7 billion. Things can happen positively in Haiti. 
The tragedy, of course, is that it was hit first by four 
hurricanes in 2008, and now by this earthquake.
    And in terms of responding to it, it seems to me that you 
have to think in long terms. The first phase is a decade. It's 
not 2 years or 5 years. And the second phase is a generation. 
And we have to be prepared to stay with Haiti for at least that 
time period.
    Now, I would say we also don't start from zero. The 
Haitians did prepare, with full consensus in the country, a 
poverty reduction strategy. It was agreed to by the donors. 
Then they prepared a post-hurricane plan, which was agreed to 
by the donors, that was aimed, last year, as you remember, 
after the meeting to achieve 150,000 jobs in 2 years. And it 
seems to me, now, that those plans have to be the basis, 
adjusted for the magnitude of the earthquake, of moving forward 
to help Haiti be less vulnerable physically and politically at 
the end.
    And here, there are certain principles, five of them. 
First, there has to be a Haitian social compact for 
reconstruction that incorporates across the Haitian social 
classes and political classes. It has to aim at achieving a 
consensus about where to go and who's going to participate.
    Second, it has to aim at building a modern Haitian state. 
It's clear that strengthening Haitians' institutions has to be 
a fundamental goal of reconstruction. And I mean modern 
institutions, logistics, information systems, communication 
systems, and management systems. And here, I would agree that 
it seems to me that the Haitian diaspora has a role to play in 
that process.
    Third, as you've already heard, ensuring economic and 
political decentralization is fundamental. Taking advantage of 
the 480,000 IDPs who have fled the city, going back to their 
communities, the reconstruction plan, in a sense, has to start 
there, because you can start there; you don't have to remove 
rubble, you can begin to implement reconstruction plans in 
those departments now. There are eight functioning ports in 
Haiti around the country. There is the capacity to build 
regional development poles around them. As part of the 
reconstruction plan agreed to last year, there was going to be 
an industrial park built in Cap Haitien. The Royal Caribbean 
Cruise Company is expanding its pier and other assets in 
Labadee. All of those things, it seems to me, can be done now.
    Fourth, obviously there has to be an environmental-
protection disaster-preparedness lens for every reconstruction 
process or project in terms of where they're going to be 
located rather than in terms of the construction standards.
    Finally, it has to be long-term, massive, coordinated 
assistance from the U.S. Government and the international 
community. I've made some suggestions in the written testimony, 
with respect
to how to coordinate, and I'd be happy to deal with that in the 
questions.
    Priority areas. If you don't have security, it is going to 
be very difficult to do anything. And so, I would strongly urge 
that, as we look forward, we look at what's being done in order 
to ensure security and move forward on the reforms with respect 
to the rule of law, police, justice, and prisons.
    And I would add that having the U.N. peacekeeping mission 
there for a significant period of time, going forward, is 
absolutely essential.
    You've already seen problems, in Cite Soleil, from some of 
the criminals that escaped when the national penitentiary 
collapsed.
    The second area to focus on is education. Haiti has never 
had a free public education system. Without education, I don't 
see how long-term development can take place. And I think there 
are ways that that can be done.
    Third, agriculture. We have to shift from a situation where 
Haiti is importing 70 percent of its rice to a situation that 
goes back 30 years, when it produced most of its own rice for 
its consumption internally.
    Fourth, energy. Energy requirements, and particularly 
changing from using charcoal, which undermines every effort at 
reforestation, as your major cooking fuel. Your major fuel for 
small business is charcoal-burning. That needs to be changed. 
And it's been changed in several places around the world, by 
the World Bank subsidizing the shift.
    And finally, I would say, with respect to the diaspora, the 
diaspora can be a fundamental part of this effort. And I also 
would suggest that we think about both AmeriCorps and the old 
CCC as mechanisms now for employing many of the people who have 
lost their homes as well as their jobs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

    Prepared Statement of Mark L. Schneider, Senior Vice President, 
               International Crisis Group, Washington, DC

    Mr. Chairman, members of the subcommittee, let me express my 
appreciation for the opportunity to offer testimony today on the 
immediate and long-term consequences of the earthquake in Haiti--for 
its people, its democracy, and its neighbors.
    First, I want to express my condolences to the people of Haiti for 
the enormous loss of human life--far more victims than in any other 
natural disaster in the history of this hemisphere--ever. We already 
know that some 150,000 people were killed, 200,000 were injured and 1 
million more lost their homes. After all the collapsed buildings are 
finally removed, this earthquake may be among the three or four worst 
disasters ever recorded anywhere on earth in terms of loss of life and 
injury.
    For many of us, there are faces and names we recall with a deep 
sense of loss. I first went to Haiti in 1978 with then-Ambassador 
Andrew Young to raise concerns about human rights abuses under the 
Duvalier dictatorship. With PAHO/WHO, USAID, Peace Corps, and now the 
Crisis Group, I have worked with Haitians desperately trying to achieve 
a better future for their families.
    Second, let me express my deep sadness at the deaths of men and 
women from the U.N. peacekeeping mission (MINUSTAH) including its 
leaders Hedi Annabi, Luis da Costa, and Gerardo LeChevallier, along 
with Philippe Dewez from the IDB, and all of the others who were 
working with the government of President Rene Preval to improve 
conditions in Haiti.
    Finally, let me express my own enormous pride in the generous 
response of citizens from this and other countries--the volunteer 
doctors, nurses, NGOs and search and rescue teams, as well as the rapid 
and robust response from the Obama administration, particularly USAID, 
State and the U.S. military, but also from Canada, Brazil, Mexico, 
Cuba, and others in this hemisphere, and France, the EU, Spain, China, 
and other countries outside the hemisphere.
    Mr. Chairman, the important questions that you posed with respect 
to planning, managing and implementing Haiti's reconstruction have been 
the subject of much discussion in Port-au-Prince, at the Montreal 
donors preparatory session last week, at the World Economic Forum in 
Davos, at the U.N., the EU, and the OAS. Many have looked at examples 
from the past--the tsunami in Southeast Asia, Hurricane Mitch in 
Central America, post conflict reconstruction measures in Kosovo, El 
Salvador, and Liberia. Each of those experiences offers lessons about 
relief and reconstruction, which have already helped improve the relief 
measures in Haiti. For just one example, Mitch taught USAID's OFDA that 
prepositioning basic supplies in Florida and the Caribbean could 
alleviate the need for lengthy procurement procedures, and that 
preapproved agreements with the Southern Command could speed 
transportation logistics.
    All of those cases had several things in common:
          The victims never felt that relief was coming as fast as they 
        needed it;
          The transition from relief to reconstruction was neither 
        smooth nor untroubled;
          Maintaining international engagement and international 
        coordination was a constant struggle; and
          The challenge of ensuring that the host government was 
        strengthened rather than weakened was not fully met.
    Given the magnitude of Haiti's destruction, the fragility of its 
institutions before the quake and the depth of its poverty, overcoming 
these challenges to effective reconstruction will pose an even more 
daunting challenge to Haiti and to the international community.
    Mr. Chairman, the International Crisis Group has issued 15 reports 
about Haiti over the past 5 years. The most recent, ``Saving the 
Environment, Preventing Instability and Conflict'' (April 2009) was 
unfortunately all too prescient in identifying the additional risks to 
stability and complications in urban planning, construction, and 
infrastructure design posed by Haiti's historical disregard for the 
environment and vulnerability to natural disasters.
    There is a mantra now that we must help Haiti to build back better, 
to ensure that recovery and reconstruction leave Haiti less vulnerable 
to the consequences of natural disasters. That should be done. But it 
is also impossible to completely eliminate Haiti's vulnerability given 
its incredibly hazardous geologic and geographic location precariously 
positioned along a ghastly seismic faultline, in the annual hurricane 
path from Africa, and caught between the small plane and fast boat 
cocaine routes from Colombia and Venezuela.
    However, Haiti's vulnerability also stems from its failure to 
overcome two centuries of bad governments, inequitable and centralized 
political and economic power structures in Port-au-Prince, and not-
always-benign foreign interventions. Many point to the billions in aid 
that Haiti received over the last five decades and say it was all for 
naught, that there is no hope today.
    I argue the contrary. In June, I met with several government 
representatives, including President Preval, and the former and current 
Prime Minister. In December, I held discussions with the late Hedi 
Annabi and others from the U.N., IDB, WB and the representatives from 
President Clinton's envoy office to assess progress and examine the 
challenges for 2010. There were concerns, of course, but there also was 
a degree of optimism:

--Reforms were taking hold within the civilian police; in fact a 2009 
    poll showed over 70 percent of the population approved of their 
    performance, a far cry from the past.
--The first glimmers of judicial reform in 50 years were seen with the 
    opening of an academy to train judges, and passage of key laws to 
    set merit-based standards and salaries for judges and to establish 
    a monitoring commission to vet existing judges and provide 
    professional assessment of their performance.
--The first class of trained corrections officers had graduated and a 
    plan to build new and restructure older jails was underway.
--The HOPE II legislation had boosted employment by close to 25,000 and 
    recruitment by former President Clinton had brought investors to 
    Haiti. The transition from showy pledges to actual capital 
    investment projects underway, including on a $55 m. Royal Caribbean 
    Cruise expansion of the Labadee resort and a new industrial park on 
    the outskirts of Port-au-Prince, thanks to a $25 m. commitment from 
    George Soros, a member of Crisis Group board of trustees.
--Haiti had a fully functioning legislature, which after risking 
    stability by ousting a competent Prime Minister, Michele Pierre 
    Louis, at least demonstrated a marked readiness to act by approving 
    the new Prime, Minister, Jean-Max Bellerives, his slate of 
    ministers and their program in record time, when the same process 
    last spring took months.
--Haiti's budget for the current fiscal year--contrary to that of the 
    United States--was actually passed on time; the previous budget had 
    not been approved until 8 months into the fiscal year.
--In October, the United Nations extended its mandate for another year 
    and Latin American nations swiftly reaffirmed its leadership, 
    contributing some 4,000 of MINUSTAH's 7,000 formal military 
    members.
--For 3 years, the Preval administration had met its fiscal targets, 
    reduced inflation, and maintained a stable monetary structure. 
    Despite the devastation caused by four consecutive storms in 2008 
    and the global economic crisis, Haiti was one of two countries in 
    the region to post positive economic growth (2.4 percent) in 2009. 
    The progress prompted the IMF and World Bank to endorse the 
    cancellation of $1.2 billion of Haiti's multilateral debt, more 
    than half. The earthquake not only justifies--but truly demands--
    that the last half of Haiti's debt be written off.

    Despite myriad problems--some self-inflicted--the Preval 
administration advanced these reforms in concert with MINUSTAH. The 
administration sought to engage the business community, opposing 
parties and civil society in developing a common vision of the future. 
Preval had named five ad hoc commissions, including some of his 
opponents and independent scholars, to identify and develop 
recommendations on critical issues, including the politically 
contentious issue of constitutional reform.
    With the leadership of the current Prime Minister Jean-Max 
Bellerives, who was then Minister of Planning, the Preval 
administration had also partnered with local communities and multiple 
sectors with the support of the World Bank and U.N. to formulate a 
national consensus for poverty reduction. The result was a Haitian 
National Poverty Reduction Strategy Paper, which was also endorsed by 
donors. After the 2008 hurricanes, the strategy was developed to 
include a job creation plan with a primary focus on jobs in rural 
agriculture, decentralized tourism, and the factory apparel industry. 
Donors gave their blessing to that program last April.
    Those plans and strategies give Haiti a huge advantage today 
because they can serve as a foundation for reconstruction. In addition, 
some of the ideas that could not be put forward before the earthquake 
now can and must be considered for Haiti to transform its future.
    Starting with the premise that the first phase of Haiti's 
reconstruction will require a decade, and the second, a generation, I 
offer these suggestions for five principles of successful 
reconstruction that could transform Haiti's political institutions and 
economic options.

  <bullet> Forge a new Haitian Social Compact for reconstruction. A 
        unified Haiti under its currently elected government--not any 
        superimposed protectorate--has to be in the lead on Haiti's 
        recovery if the effort is to be successful. Haiti's history has 
        been defined by a small economic elite who dominated economic 
        and political power until the 1990s, opposed tax levels needed 
        to finance adequate state services and, in many cases, eluded 
        their personal tax obligations as well. For Haiti's recovery to 
        succeed, the elite must share in the sacrifice, especially 
        since they will inevitably benefit from any success. Changing 
        that equation will require the kind of inclusion that created 
        the PRSP and drove a successful national advocacy campaign for 
        Hope and HOPE II. Reconstruction has to be led by Haiti's 
        elected government and represent all of Haiti and have the 
        participation of the private sector. The full engagement of 
        Haitian civil society--like the process that underpinned the 
        PRSP--also must be generated. Communal leaders like those in 
        NDI's Initiative committees are also potential allies in this 
        process. Upcoming parliamentary elections have been postponed. 
        The social compact hopefully will find a way, endorsed by all, 
        to agree to hold the Presidential, parliamentary, and local 
        elections together next November, if humanly possible, with the 
        constitutionally mandated Parliament remaining in office until 
        the newly elected members take office next January.
  <bullet> Build a modern Haitian state. Haitian Government has always 
        been starved for resources and its ministries have never been 
        able to keep up with growing public needs. The reconstruction 
        of Haiti must be aimed at transforming the country in a way 
        that leaves a modern functioning state able to sustain public 
        services and guarantee the rule of law. Modern communications, 
        information technology and management systems have bypassed 
        government ministries to some degree and denied them the 
        capacity to actually deliver fundamental services to regional 
        departments and municipalities. Modern data information, 
        communications systems, and planning and evaluation capacity 
        were all lacking in the ministries before their buildings were 
        destroyed. Rebuilding those ministries on modern terms is 
        essential to avoid Haiti becoming a failed state.
  <bullet> Ensure economic and political decentralization. Ending 
        centralization of virtually all economic investment in the 
        capital is essential to reducing extreme poverty in its rural 
        departments, and to rebuilding Port-au-Prince. A growing 
        percentage of the capital's population, now estimated at close 
        to 400,000, has returned to families in their original villages 
        and towns, a third going to the Artibonite, originally the 
        heart of Haiti's rice farming. Now may be the first time that 
        Haiti's constitutional call for decentralization can actually 
        be attempted. If regional economic development poles can be 
        generated around the country--for instance by implementing HOPE 
        II in a way that encourages the construction of industrial 
        sites in other departments with access to ports, such as Cape 
        Haitien in the North, Port-de-Paix in the North West and St. 
        Marc in the Artibonite--it will also help to stem the flow of 
        migrants to Port-au-Prince. That also will give the capital a 
        better chance for more rational reconstruction and avoid a 
        replication of the slum communities of the past.
  <bullet> Use environmental protection and disaster preparedness 
        standards for all reconstruction projects. Haiti has gone from 
        a country with 80 percent forest cover centuries ago, to about 
        20 percent in the 1940s, to 2 percent today. Its hillsides are 
        mudslides waiting to happen. Every reconstruction project 
        should be judged in part by whether it advances environmental 
        protection, and every construction project should be judged on 
        whether it incorporates both hurricane and earthquake 
        resistance elements.
  <bullet> Guarantee massive, coordinated assistance. The United States 
        and international response must be bigger and better 
        coordinated than ever before. The United States has already 
        committed nearly $400 million to relief, and hopefully it will 
        show leadership in formally committing to a decade-long 
        reconstruction and development plan at the upcoming March 
        pledging conference at the U.N. While the detailed assessment 
        of damage and reconstruction costs have yet to be completed, 
        early estimates suggest the damage could go well beyond $10 
        billion. A broad group of NGOs--including the International 
        Crisis Group--has recommended an early emergency supplemental 
        of $3 billion as essential to Haiti's recovery. The sooner it 
        is approved, the more likely other countries and institutions 
        will seek a matching commitment. To put this in some 
        perspective, in this hemisphere, the United States has pledged 
        between 30-65 percent of the reconstruction aid totals 
        following natural disasters like Hurricane Mitch or peace 
        accords in Nicaragua and El Salvador.
      For that effort to be successful, each key U.S. agency, 
        particularly USAID, State, and DOD, must designate full-time 
        Haiti Reconstruction Coordinators. Ideally, the President 
        should name a single Haiti Reconstruction Coordinator to serve 
        as an overall U.S. government policy czar for Haiti 
        reconstruction and empower him or her with the necessary 
        authority to ensure an all-of-government response. That would 
        ensure a greater degree of overall strategic coordination, 
        guarantee interagency coherence and reduce potentially 
        counterproductive delays.
      However, the United States also must commit by example to a 
        similar international coordinating reconstruction effort. There 
        is already a U.N. peacekeeping mission on the ground. Even 
        before the earthquake, the Secretary General's Special 
        Representative was unable to ensure that independent U.N. 
        agencies, within their competence, responded to the priorities 
        defined by the Security Council. That needed to be changed 
        earlier. Now it is absolutely essential. The UNSRSG also should 
        be the interlocutor with the Government of Haiti with respect 
        to security, rule of law, and political reform and coordinate 
        all international reconstruction assistance. In other areas, he 
        or she should still cochair along with the Haitian Prime 
        Minister or the designee of the President and the Prime 
        Minister, a technical and financial reconstruction committee, 
        that will have the authority to review projects deemed contrary 
        to the major objectives of the U.N. mandate and the goals of 
        the Haiti reconstruction and transformation plan. Obviously the 
        World Bank, IDB, U.S., EU, and others would sit on the 
        committee with the SRSG and the Haiti government. The committee 
        should be the mechanism of international coordination and 
        oversee progress toward implementing the reconstruction plan 
        and hopefully pressure each other to make good on donor 
        pledges.
      In addition, a critical Haitian governmentwide procurement 
        mechanism should be considered, in partnership with the 
        international community, to oversee large-scale infrastructure 
        projects proposed by Haiti for its transformation--from 
        planning to procurement to construction to completion. 
        Inclusion of measures of transparency and accountability in 
        that agency will be vital not only for donor satisfaction but 
        to avoid inevitable suspicion from Haitian constituencies as 
        well.

    Let me suggest five priority areas where many of those principles 
should be applied.
    First, for reconstruction to succeed, both security and the rule of 
law are required. Reconstruction planning must incorporate a clear and 
critical path toward the completion of police, justice, and prison 
reforms that were initiated before the earthquake, and deploy them 
across the country.
    Fortunately the presence of the U.N. peacekeeping mission--and 
temporary U.S. military forces--guarantees the physical stability of 
the state. The past has shown us that gangs in Port-au-Prince are 
capable of quickly reorganizing. It appears that is what is happening 
now in Cite Soleil and other areas, where there are reports that 
criminals--many from among the 5,000 prisoners who escaped the crumbled 
penitentiary--are resuming their criminal armed activities. The U.N. 
peacekeeping mission has been authorized for a reinforcement of 2,000 
more troops and 1,500 more police. They will need more police, to be 
sure, well beyond 2011, while police stations are rebuilt and equipped 
and the training of new police continues. To put it in perspective--
about 1,000 of the 4,000 police who worked in Port-au-Prince have not 
shown up for work or are believed to have died, although the large 
majority, despite their own losses in many cases, are back on the 
streets.
    The United States can also respond to President Preval's pleas for 
help in fighting drug trafficking by boosting the interdiction 
capability of the Haitian Coast Guard and the Haiti National Police 
(HNP) on an on-going basis. The United States could also second more 
Haitian-American police, prosecutors and judges to the U.N. to assist 
Haiti in building its own justice infrastructure.
    Second, for reconstruction to succeed, Haiti must be supported in 
building a nationwide system of free public elementary and secondary 
education--not just in Port-au-Prince but across every department. 
Before the quake, nearly 40 percent of Haiti's children were not in 
school. Of those in school, an estimated 80 percent were in private 
schools, most of which were unregulated, offered poor quality 
education, and charged exorbitant fees. The Haitian diaspora can offer 
unique support, particularly with teacher training. Creole-speaking 
former Peace Corps volunteers can play a role, and the Peace Corps 
already is gathering a skills-data base to link into the reconstruction 
effort. Supplemental funding to fund this effort should be provided.
    This is also an opportunity to offer Haiti's young people a chance 
to participate in their country's own recovery. The concepts of 
AmeriCorps and the Civilian Conservation Corps should be introduced to 
produce jobs for the unemployed that contribute to Haiti's 
reconstruction.
    Third, renewing Haitian agriculture may be the best way to keep the 
migrants from Port-au-Prince in their communities of refugee. They must 
have access to credit and fertilizer, assistance with marketing and 
perhaps even guaranteed prices for their first harvest. If that occurs, 
the capacity of Haitian farmers to once again be the major source of 
food for the population, as it was before the 1970s, would be enhanced, 
particularly with respect to rice. Before the 1970s, Haiti produced 
nearly all of its rice. Once tariffs were removed, its farmers could 
not compete with subsidized and large-scale rice farmers in the United 
States and they nearly disappeared, as 70 percent of Haiti's rice is 
now imported. Haiti has shown that it has the potential to meet modern 
marketing demands with mango and coffee crops. When agriculture is 
linked to environmental protection with protection of watersheds, 
terracing, and reforestation, there is a win-win outcome.
    Fourth, meeting Haiti's energy requirement will be essential in any 
reconstruction environment and now may be the moment when an historic 
shift away from charcoal--as fuel for cooking and for small business 
energy generation--can be achieved. It would not only remove the 
constant threat to the nation's remaining forest cover, including in 
its national parks, but also enable reforestation to have some chance 
for success. This will require Haitian leadership with international 
technical and financial support in a single, unified program that 
subsidizes impoverished Haitians in making the transfer. This is 
essential along with continued reform of Haiti's electric utility, EDH.
    Finally, the Haitian Social Compact should clearly engage the 
Haitian diaspora in the reconstruction effort. This could include 
providing avenues for remittances for development, with matching 
contributions by donors for community projects. In addition, the same 
concept of direct transfer of resources from a diaspora Haitian-
American or Haitian-Canadian to a family member--which now surpasses 
official development assistance--should be used as a model for 
accelerating the use of conditional cash transfers to the poor, with 
the sole condition being that their children are immunized and attend 
school. Using the Brazilian, Mexican, and other models, an income 
supplement can reach impoverished Haitian families when they need it 
the most.
    Helping Haiti recovery from this natural disaster constitutes an 
obligation for every nation of this hemisphere and beyond. It is not 
only the right thing to do in helping neighbours, it is the only thing 
to do.

    Senator Menendez. Thank you.
    Mr. MacCormack.

 STATEMENT OF CHARLES MacCORMACK, PRESIDENT AND CEO, SAVE THE 
                     CHILDREN, WESTPORT, CT

    Mr. MacCormack. Thank you, Mr. Chairman and Senator Corker.
    I've been twice to Haiti since the earthquake. First, I 
went with U.N. Secretary General Ban Ki-moon and U.N. 
officials, and then with the CEO of Citicorp, both of whom were 
going for memorial services for their key employees. I've been 
doing this kind of work for a long time. What is really unique 
about the situation in Haiti is how the policy community, the 
relief community, the management community have been equally as 
devastated as the population as a whole. So, that is going to 
make the building-back challenge that much greater. We have to 
realize that the government, the U.S. Embassy, the USAID 
mission, the U.N., and the NGOs have all lost their own people, 
and their own facilities.
    Having said that, I would emphasize four principles that 
are interrelated and, I think, key.
    The first is that this is going to be a 5- or 10-year 
process. And I realize, here in the Congress, you can't 
necessarily commit for that period of time, but a framework 
would be key, because the priorities that you mentioned, 
Senator Menendez, are all key, but they can't all be done in 6 
months or 1 year. They've got to be sequenced over a 10-year 
period. When we talk about rebuilding--or building--the Haitian 
Government and the education system, that's going to be a 10-
year process.
    Save the Children has been in Haiti for 30 years. We've 
been in Indonesia for 30 years. We were in Aceh, after the 
tsunami, with a 5-year plan. We have a 5-year plan for Haiti 
now, and a 10-year framework for that.
    So, the only way to move forward is within a long-term 
framework; otherwise, we'll be back again in 3 or 4 years, 
after the next set of hurricanes, and people will be wondering, 
Where did we go wrong?
    And that's a second point. That is, to make sure that there 
are adequate resources to get the job done, not just from the 
United States, but from around the world, and that it is in the 
frame of a public-private partnership. The American people have 
already given $500 million of their own hard-earned cash for 
Haiti. Individual citizens around the rest of the world have 
also given a half-billion. So, that's a billion dollars of 
private philanthropy that's already been committed to Haiti.
    I mentioned CitiCorp. The private sector is going to have 
to have a framework to be involved in helping to move Haiti 
forward. We can't create a situation where endless subsidies 
are the only way to maintain a health and education and 
infrastructure system.
    So, there has to be adequate resources, but we have to have 
incentives for the private sector and for philanthropy to be 
involved for the longer haul.
    That's the third issue, which is, put Haitians to work, and 
back to work. In Aceh, we employ between 1,000 and 2,000 
Acehnese. It was the poorest province in Indonesia before the 
tsunami. There were rebel groups, the GAM, in the hillsides, 
because there was no employment for them. They now have 
adequate employment and an economy that's self-sustaining. That 
can happen in Haiti, but we've got to, again, through CCC kinds 
of operations, through policy incentives and tax incentives and 
so on, so forth, put Haitian employment at the fore of the 
strategy. It's tempting to go in with outside help and large-
scale technology, but put the Haitian people to work. And the 
diaspora has been mentioned consistently, all kinds of talent 
and education, but there have to be incentives for these 
individuals to return and get involved, which they would like 
to do.
    Finally, the organization is going to have to be a team 
sport. Not the U.N., not the Government of Haiti, not the NGOs, 
not the United States Government alone, can do this. There's 
going to have to be some kind of joint operation that brings 
together these different parties--the Government of Haiti, the 
U.N. system, the bilaterals, particularly the United States 
Government and the nongovernmental organizations, such as Save 
the Children, CARE, and others--that work together to build a 
better future for Haiti.
    Thank you.
    [The prepared statement of Mr. MacCormack follows:]

      Prepared Statement of Charles MacCormack, President and CEO,
                    Save the Children, Westport, CT

    Mr. Chairman, Save the Children welcomes this hearing by the Senate 
Foreign Relations Subcommittee on Haiti. It raises important issues 
that deserve full discussion because the choices will affect lives and 
the future of a nation.
    I have traveled to Port-au-Prince twice since the January 12 
earthquake and saw firsthand its catastrophic impact. The devastation 
of the capital, with its highly centralized government infrastructure 
and institutions, is reverberating across the entire country. No part 
of Haiti is unaffected, as thousands of displaced families and children 
leave the earthquake zone, and as insufficient government services and 
infrastructure falter or collapse.
    Children are always among the most vulnerable during emergencies. 
Sadly, the damage wrought by this earthquake only compounds the 
challenges that Haiti's children and families already faced each day. 
Their needs are enormous: medical care, food and water, shelter, basic 
supplies, protection and education. The threat of disease and illness 
is constant and cases of tetanus and suspected cases of measles have 
already been reported. Children are separated from their families, and 
are at risk for abuse and exploitation, as well as psychosocial 
distress. While the Haitian people are extremely resilient and have 
exhibited much patience, their challenges are daunting.
    The earthquake caused severe damage, but also created the need for 
visionary thinking toward recovery and reconstruction so Haiti can 
start a new chapter and proceed on a new path forward. Save the 
Children hopes to work with Haitians to turn that page, based on our 
experience and expertise from over three decades in the country working 
in a complex environment characterized by frequent humanitarian crises. 
We have launched in Haiti one of our largest international responses 
ever. Save the Children is now engaged both in an immediate response to 
a disaster of unprecedented scale as well as in development of a bold 
and ambitious vision that is both long term and comprehensive, 
incorporating principles of supporting Haitians ``building back better 
for children'' at every step.
    Our goal is to provide emergency assistance to save lives, 
alleviate suffering and support the recovery of 800,000 people 
including 470,000 children. This effort is focused on the entire 
country. There are no unaffected areas, so we all need to develop 
solutions both for those in the earthquake zone as well as those 
elsewhere, such as enhancing secondary city habitability and improving 
rural agricultural zones. We are working together with the Government 
of Haiti and other international and local organizations to assess and 
respond to the needs of children without parental care and to identify, 
register, and reunite separated children with their families. We have 
also accepted the United Nations request to help coordinate efforts to 
reunite separated children and colead the international response on 
education. In addition, we are delivering medical supplies to 
hospitals, distributing food, opening mobile health clinics and 
creating child-friendly spaces for children.
    Our vision is a Haiti where all children realize their rights every 
day to a basic education, a healthy life, freedom from abuse and 
benefit from the support of families who recognize the fundamental 
needs of their children. In order to make lasting, positive change in 
the lives of children, Save the Children calls on the U.S. Government 
to sustain robust support for meeting Haiti's immediate and long-term 
development needs in cooperation with the Haitian Government and a wide 
variety of partners, including local civil society and children 
themselves.
    During all stages from early recovery through reconstruction, the 
international community and Haitian authorities must demonstrate a 
serious commitment to disaster risk reduction in all spheres of 
activity. Hurricane season is just around the corner and we know these 
kinds of investments up front can avoid much greater costs incurred 
later through humanitarian responses.
    Haiti's rebuilding will require substantial investment. The 
international community must fulfill the United Nations flash appeal 
for $576 million, and then sustain significant investments for the next 
10 years. We need to ensure the international community stays the 
course and that, unlike in past humanitarian crises, attention does not 
erode as other challenges arise. The government of President Preval has 
shown for the past 2 years that it is a government that the 
international community can work with--we must make our commitments 
longterm, predictable, and transparent.
    In 2008 Congress passed HOPE II (the Haitian Hemispheric 
Opportunity through Partnership Encouragement (HOPE) Act), which 
extended trade preferences to Haiti for 10 years. As others have 
recommended, Congress should consider broadening these preferences to 
include even more of Haiti's exports. Finally, instead of issuing new 
loans to the Haitian Government, post-earthquake assistance should be 
in the form of grants. Outstanding bilateral and multilateral debt of 
nearly $1 billion should be cancelled. Future funds must go to rebuild 
Haiti and ensure its children have a future to look forward to.
    Haiti's rebuilding will take time. The recent ministerial planning 
conference in Montreal should the first step of a 10-year commitment by 
the international community to walk with Haitians toward a new future 
and to meet their immediate and long-term development needs in 
cooperation with a wide variety of partners, including local civil 
society and the government of Haiti. Save the Children has been in 
Haiti for over 30 years. Today when we start working with a community, 
we want to make a commitment to them--to work with them for 10 years 
and build their capacity during that time to take over from us. We work 
with the government, with local nongovernmental organizations (NGOs) 
and with the community. We can only make such a commitment with support 
from our private donors because few institutional donors have a 10-year 
timeline. But Haiti needs such a long-term commitment from all of us.
    Enhanced coordination is also necessary. We all need to do better 
at coordinating our efforts, especially given the thinly stretched 
capacity of the Haitian Government. Even before the earthquake, 
coordination among the major donors, NGOs and others was more a case of 
information-sharing than thoughtful division of labor. With more to 
accomplish and more actors engaged, the importance of strategic 
coordination cannot be understated.
    To do our part, Save the Children is playing a leading role in the 
U.N. cluster system, which seeks to coordinate the international 
humanitarian response by sector. Previous experience suggests, however, 
that in working alongside and through the U.N. system, the United 
States should empower one concerned agency to oversee the overall 
response. President Obama wisely empowered Dr. Rajiv Shah, the new 
Administrator of the U.S. Agency for International Development (USAID), 
to oversee the U.S. relief response in Haiti. USAID should be empowered 
as well to lead the U.S. development effort, so that the dozens of U.S. 
agencies engaged with Haiti respond in a coordinated and cohesive way 
to support Haiti's long-term development needs.
    Some are questioning whether longer term aid will be well spent 
given the political instability and corruption that were wide spread 
prior to the earthquake. The answer, of course, depends on the Haitian 
people, but the U.S. Government can do its part to move in the right 
direction. As the largest donor to Haiti in the past, the effectiveness 
of the U.S. Government programs impacts the entire development 
enterprise in Haiti. Just a few donors, the United States, Canada, 
France, the EC and the World Bank, contributed over 90 percent of the 
official development assistance in 2006 and 2007 with the United States 
and Canada alone providing almost half. Better and more strategic 
coordination amongst the international community is both possible and 
necessary.
    Working with the Haitian Government and civil society, the United 
States can make significant progress toward more effective 
reconstruction and development. The United States, with NGO partners 
and other donors, should intensify its commitment to building the 
capacity and systems of the Haitian Government and Haitian civil 
society to lead and manage their own development.
    Rebuilding infrastructure is important; building institutions, as 
former USAID Administrator Natsios argued in a recent essay, is of even 
greater importance. In Haiti, Save the Children will continue to work 
with Haitian institutions and build Haitian systems. For instance, 
prior to the earthquake we were supporting 250 schools in Haiti--
government, religious and private schools. Schools supported by the 
government are apparently the strongest, but the government did not, 
and certainly now does not, have the capacity to spend even the few 
funds that the international community provides to it. As schools 
reopen, we will continue to support school health and nutrition, and 
teacher training at these schools, and work with these schools to go 
through the government certification process which ensures that the 
schools are aligned with government protocols. The United States and 
international partners must strengthen both government institutions to 
oversee and provide education, and the private and nonprofit Haitian 
institutions to link with this system.
    Drawing on Save the Children's previous experience, including 
lessons learned by the 2004-05 tsunami response in Southeast Asia, we 
know that Haiti's effective long-term development will require putting 
Haitians at the center of their own development and recognizing the 
critical role of women and youth in the decisionmaking process. In this 
regard, we believe the administration and Congress should consider the 
following:

  <bullet> Invest in participatory initiatives that engage women and 
        children in the decisionmaking, implementation and monitoring 
        of reconstruction and development initiatives;
  <bullet> Focus on rebuilding Haitian institutions and systems. 
        Infrastructure matters a great deal, but promoting human 
        development by equipping Haitians to deliver quality education, 
        health care and other services themselves matters even more;
  <bullet> Explore models for attracting back the Haitian diaspora into 
        the government at reasonable salaries, as Liberia and 
        Afghanistan have done with some success;
  <bullet> View the Haitian Government's recently completed development 
        plan as the primary plan for Haiti's reconstruction and 
        development;
  <bullet> Strengthen USAID with more staff to properly plan, engage, 
        leverage with others and monitor our assistance. Currently 
        there too few staff and they spending 30 percent of their time 
        on reports and planning documents for Washington DC.

    Business as usual is not enough for Haiti. The international 
community, the United States and the NGOs must sharply expand our focus 
on human development, both skills and institutions. Governments, NGOs, 
foundations and other stakeholders must help build the capacity of 
Haiti's civil society, private sector, and national government from the 
very local to the national level to enable Haitians to lead their 
country into a brighter future.

    Senator Corker. I really----
    Senator Menendez. Senator Corker.
    Senator Corker. I'm looking at the clock, and I've got to 
bolt out of here. And I apologize. But, I want to thank each of 
you for your testimony and what you do on a daily basis, both 
you and your organizations.
    And Stacy Oliver, behind me, will follow up with some 
questions, and we'll have communications, I'm sure, with your 
staff.
    But, I want to thank you. I know all of us have--I'm sure 
Senator Menendez, but--have spent time in Haiti, and met with 
Preval recently, and saw that there was progress being made. 
But, we all realize tremendous devastation of managerial 
infrastructure there. And I do think that, for years, we have 
worked around--we have worked around governments in the past. 
Again, I realize there was a glimmer of hope over these last 
several years, but I do think that what has happened is going 
to cause us to need to respond in a way that certainly 
respects--and realize it's a sovereign country, but, at the 
same time, we're probably going to need to be a little tick 
stronger in helping make--this is an opportunity, with all the 
devastation and sorrow and unbelievable agony that's occurred, 
it is an opportunity for us to work even more closely with 
them. And I know that your organizations will be involved, and 
your efforts will be involved, and I thank you very much for 
your testimony.
    Senator Menendez. Thank you, Senator.
    Let me ask a few questions. I appreciate all of your 
testimony. I think it was insightful. I clearly hear the long 
term. And that's one of my concerns. I know there is a passion 
right now, by average people in this country, our government, 
and other governments throughout the world, but I've also seen 
this play before in different parts of the world, where that 
passion ultimately subsides and the challenge--the long-term 
challenge is forgotten.
    So, I think a lot of what gets done right now is going to 
be critically important to laying the foundation as to whether 
we can keep the commitment that is necessary.
    So, we're going to be looking at a multidonor trust fund. 
And given the scope of the disaster and the extremely complex 
reconstruction effort, in all of its dimensions, several of 
which you've mentioned here in your collective testimony, you 
know, there are clearly there, we're talking about billions of 
dollars, over time, which will be required to finance it. And 
some have suggested that those reconstruction funds be managed 
via a multidonor trust fund.
    Keeping in mind the need to ensure that the Haitian 
Government takes the lead in crafting--I strongly believe that 
its own reconstruction plan, maybe working off the ones, Mark, 
that you mentioned, that are already in place as a result of 
the hurricane--accountability is going to be a key concern of 
donors. And based on previous experiences and lessons learned, 
such as in the tsunami, what would be the best mechanisms for 
coordinating and managing the billions of dollars that will be 
pledged by donors and spent for this effort? How--and I open 
this up to any one of you who want to answer this--how should--
particularly, Mr. MacCormack, with your experience--how should 
NGO efforts fit into such a coordination mechanism? And how 
would local NGOs and civil society make sure that their voices 
are heard? And should we be encouraging this at the U.N. 
meeting in March in New York?
    So, why don't we start with you, Mr. Schneider.
    Mr. Schneider. Let me try. I would start where you just 
left off. You have at this point, about a 12,000-member United 
Nations peacekeeping mission there with the responsibility, 
under the Security Council mandate, of ensuring security 
stability. And that's the basis for reconstruction.
    I would argue that the Secretary General's Special 
Representative should be the major international interlocutor 
with the Government of Haiti in ensuring that the security and 
political stability issues are dealt with effectively. I think, 
at the same time that this should be the core of your overall 
coordination of reconstruction. That's different from 
management of a multidonor fund. But, I do think that the 
United Nations is the right place to have the central 
coordination. And then, within that, you would have, as you 
say, a specific multidonor fund that would be managed with a 
cochair. My view would be to have a cochair from the United 
Nations and the Haitian Government's representative, probably 
the Prime Minster or the Minister of Planning, or a 
reconstruction chair. And then on it--a board of directors--
would be your major donors and representatives of the Haitian 
society in order to ensure accountability.
    There will be lots of people challenging the way those 
funds are spent, alleging misuse, et cetera. And I think the 
only way that you can do it is to have that be very transparent 
at the outset. And I think that, in that process, each sector 
would have its own plan for reconstruction, and that plan would 
be developed with Haitians first and then with the 
participation of local and international NGOs in the donor 
community.
    Remember not all, but most of the NGOs depend on donor 
finance to carry out their activities. And it seems to me that 
you want to ensure that they're carrying out those activities 
under a coordinated plan that begins with the Haitian 
Government and the Haitian people. And I think you can achieve 
that by taking the plans that have already been put together 
and then reaching agreement on a long-term reconstruction plan 
that meets some of the issues that we've talked about.
    But, I would put, first, the United Nations coordination, 
and then I would have a multidonor fund under that, with a 
broad representation. And for the U.S. Government, I think you 
also need to have a single all-of-government coordinator for 
Haiti reconstruction, and then have each of the major agencies 
have their own full-time Haitian reconstruction coordinator.
    And if I could, Mr. Chairman, about the ``long term,'' 
we've done--you've done, on the Hill, several different long-
term authorization bills; the Freedom Support Act, the 
Afghanistan Support Act, the Nunn-Lugar bill, which was 10 
years; the others were 4 to 6 years. It seems to me that you 
could have a long-term authorization for Haitian reconstruction 
and transformation that would provide a framework for moving 
forward, and then, within that, have an emergency supplemental 
that would start things off. And, as you say, I would argue 
that the emergency supplemental--and several groups have sent a 
letter--with respect for $3 billion. My suspicion is that the 
estimate of needs is going to be well over $10 billion. And I 
would say that, in the past, the United States has generally 
provided between 30 and 60 percent of the grant assistance in 
those reconstruction plans for Hurricane Mitch, et cetera.
    Senator Menendez. Mr. MacCormack, any views?
    Mr. MacCormack. I would second Mark Schneider's principles. 
I think there needs to be a senior U.N. envoy on the ground. I 
think there needs to be a senior U.S. envoy on the ground. We 
have President Preval. And I think there needs to be an NGO 
consortium. We're all talking to each other--Red Cross, CARE, 
Save the Children, World Vision--as we speak. And out of that 
group can come a chair. And those four individuals should be 
working together. The reality is that the funds and the 
capacity and the responsibilities are distributed amongst these 
four different parties. There's no way of changing that.
    So, right now, by and large, they are each fairly modestly 
represented, in terms of leadership. I think the leadership 
needs to be elevated, there needs to be a clear individual who 
speaks for the coalitions underneath each one of them.
    Mr. Maguire. Yes, Mr. Chair. I second the idea that we need 
to have a point person and collaboration and coordination. I 
would--I was certainly heartened yesterday when I saw that 
President Clinton would be having an expanded role in that 
regard. He is trusted in Haiti, and he's trusted outside of 
Haiti.
    It has struck me, in my years of working in Haiti, that I 
often wonder how government officials in Haiti ever get any 
work done outside of the meetings they have with the various 
delegations coming in, and the reporting procedures they have 
to the different agencies that are different. And now we've got 
a government that's even weaker than before, at this moment. 
So, I think we also have to keep in mind the fact that 
streamlined procedures that have the Haitian authorities only 
writing one report, not having to deal with multidelegations, 
so that they can do their work, is a very important factor to 
consider, as well. And again, that's why I would think that 
President Clinton would be a very good kind of funnel to focus 
all of that through.
    On the Haiti side, I wanted to mention one thing that has 
struck me that President Preval has done over the past 4 years 
that we might want to think about and discuss a little more 
with him. He has established a number of what he calls 
``Presidential commissions'' to look at key issues in Haiti--
judicial reform, constitutional reform, making Haiti more 
competitive internationally, and so on. And these commissions 
have actually been rather remarkable, in the sense that, not 
only have they come up with tangible and concrete 
recommendations, including for revising or amending the 
constitution, but they've done so by bringing people of all 
Haitian walks of life together, even some people who are in 
opposition political parties, to work on these commissions. 
It's something that Preval owns, it's something I applaud that 
he's done. And I would think that this might be a mechanism, in 
two ways. One would be to--from the Haitian Government side, to 
establish commissions to look at this extraordinary situation 
now, but to broaden those commissions and maybe even make them 
a mixed commission, where international actors could actually 
sit on, and be members of, the commission. I think that that 
might be a worthy idea to try to pursue with the----
    Senator Menendez. You, maybe, precipitated my next question 
that I had in mind. As all your testimonies talk about looking 
at this opportunity--out of tragedy, an opportunity to help 
Haiti with its institutions, because, if not, we--and the 
Haitian people, most importantly--will have, maybe, lost a 
long-term opportunity.
    You mentioned these Presidential commissions. I mean, I 
wonder, How do we best partner with Haiti to build its own 
capacity effectively out of this challenge? And how is that 
different than what we've done? Because obviously what we've 
done--I mean, I look at a report on a USAID mission in Haiti in 
1998, and I read it, and among the things it says is, ``Most of 
Haiti's public institutions are too weak, ineffective to 
provide the level of partnership needed with USAID or other 
donors to promote development. These institutions are 
characterized by a lack of trained personnel, no performance, a 
base incentive system, no accepted hiring, firing, and 
promotion procedures, heavy top-down management, and a decided 
lack of direction.''
    Now, I don't know what--how much have we progressed from 
there? And it seems to me that we have to find a different 
paradigm in which we work with the Haitian Government and the 
Haitian people on its institution-building capacity and its 
ultimate ability to achieve greater governance for its own 
people.
    Now, these Presidential commissions, which I'm--wasn't 
particularly aware of--may be the start of that, but how do we 
work with them in a way that's more productive? I'll open it 
up.
    Mr. Maguire. I'll--let me start off. You know, we--Haiti's 
Government has been kind of like--some people have called it a 
hollow state; it looks good on the outside, there's not much on 
the inside. And I've come to learn that Haiti's civil service 
is very demoralized. And one of the reasons it's demoralized, I 
think, is because of our development strategy, not just that we 
don't support state institutions and provide them with 
resources that make them competitive on the market for 
personnel, but that a Haitian technician with any sense, even 
if he has a government job, is probably going to spend more 
time working on the staff of an NGO and make a lot more money 
and be more secure, so the government is actually this kind of 
phantom entity.
    So, I think one of the things I would like to see--and 
certainly I'm a big supporter of NGOs. In all my years with the 
Inter-American Foundation, I supported Haitian NGOs 
exclusively; they can get the job done. But, there needs to be 
greater coordination. And I would like to see the NGOs from the 
outside responding more to the needs of the Government of Haiti 
rather than to the RFPs of the donors, so that, therefore, 
perhaps you can find a way of having the talent in the NGOs to 
be working side by side with Haitian officials, and you 
wouldn't have this discrepancy and the need for Haitian 
officials to have to go out and get a second job because their 
government doesn't have much money to pay them. And so, it's 
just a dynamic I think we have to rethink and look at a little 
better.
    I recall, about a year and a half ago, there was this short 
article in the Haitian press about the new USAID education 
program in Haiti. And the article pointed out that the U.S. 
Ambassador and the Haitian Education Minister sat down and 
signed the papers. But, it also pointed out that, at the 
signature ceremony, the Education Minister for Haiti mentioned 
to the U.S. Ambassador that, indeed--he reminded her that Haiti 
does have an education strategy. And the message there being 
that, ``Well, thank you very much for these programs and 
projects, but we want to make sure they're more in harmony with 
ours.'' So, I think if we can get some of our technical 
personnel and NGO personnel more in harmony with the 
government, too, that's going to help to strengthen the state 
and help it to be able to really shoulder this burden better.
    Mr. Schneider. Couple of things. It seems to me that, if 
we're serious, we probably need to ensure that all donors 
change their strategy. For a variety of political reasons, we 
bypassed the Haitian Government, at different stages in the 
past, and denied funds going either through the central budget 
or through specific ministries. And I think we have to shift, 
if we really want to build those government agencies, and, at 
the very least, require, if a grant goes to an NGO, that the 
NGO is required, by the donor, to follow the Haitian strategy 
in that sector; in this case, the reconstruction plan. And, 
second, that if it's not going to go through the government 
ministry because the government ministry, at that point, may 
not be capable, that an increasing portion of the grant go to 
the objective of strengthening the government ministry 
officials and technicians during the course of the grant, so 
that, after the grant period, each ministry is far more capable 
of carrying out the function rather than continuing to have it 
have to be done by NGOs.
    And the second is that, again, in each of these issues, we 
need to be saying, how are we strengthening the institution, 
not just in Port-au-Prince, but across the departments? And so, 
I would urge, as part of the reconstruction strategy, that 
institutional strengthening be decentralized from the outset. 
And so, if you're going to put people into the Ministry of 
Education, they should be going into the Ministry of Education 
in Port-au-Prince, but also in Gonaives, in Cap Haitien, in 
Port-de-Paix, in order to ensure that the ministries have the 
capability to provide services out into the departments.
    And finally, it seems to me that we have, for the first 
time, because of the magnitude of this tragedy, the ability to 
go to the diaspora, with the support of each Haitian minister, 
and say, ``We need a mid-level technician with this kind of 
experience, and we're going to fund you for 2 years, or for at 
least a year, but ideally for several years,'' to play that 
role in Haiti and do two things--carry out some of the 
functions, but also train a colleague in the Haitian ministry 
to replace you at the end of the period.
    Senator Menendez. Andrew Natsios has a piece that he put 
out that suggests finding qualified Haitian diaspora to go back 
for a period of time to help build the institutions and 
simultaneously creating a scholarship program here for graduate 
students, to help build that capacity.
    Mr. Schneider. I should say, we've tried that, and I'm sure 
he tried that. And the problem was, in the past, there was 
resistance both to bring in higher paid diaspora people and 
resistance, from inside the ministries, that they were going to 
be, in a sense, overlooked or superseded by these individuals. 
And at this stage, there are so many gaps in the ministry that 
I think that that problem is no longer there and this kind of 
program can be an integral part of each of the sectoral----
    Senator Menendez. So, instead of a threat, it would be 
welcomed.
    Mr. Schneider. Exactly.
    Mr. MacCormack. In terms of this question of how we should 
relate--best relate to the people and Government of Haiti, it 
does seem to me it's got to at least be a two-track system; 
there has to be the work with the Government of Haiti, but 
there also has to be the bottom-up side of the process and 
working with the Haitian people and Haitian nongovernmental 
organizations and entities on the ground, in the neighborhoods 
and communities of Haiti, where an awful lot of strength really 
is. And I do think that's also the role of their international 
NGO partners.
    But, I would say, we have not been outstanding in our 
building of Haitian NGOs, and I would recommend that get built 
into the process, to the extent we can do it. The challenge is, 
it takes longer. It's easier for Save the Children to deliver 
the services, build the schools, train the teachers ourselves, 
with our well-trained Haitian staff and our systems and so on, 
so forth, than to take the extra time to build a Haitian 
institution as well as get the job done. And so, there's a bit 
of an accountability tradeoff here, in terms of timeframes. 
Ideally, we'd allow AID and others to build this into their 
procurements, and so on, so forth, and recognize it may take a 
bit longer to do it, in this twofer process of both building 
Haitian institutions and getting the job done, than it would if 
the international NGO just did it itself, but, in the end, if 
we don't do that, we're going to be right back in the same 
hollowed-out situation that we find ourselves today.
    Senator Menendez. Your comment raises the last question 
that I have. Well, not the last question, but the last question 
I'll ask. We're still going to pick your brains, moving 
forward. You know, and it's the question of long-term thinking. 
You know, in the 2004 Asian tsunami, we didn't do long-term 
thinking; we rushed, I think it was, 30 million--30,000 metric 
tons of food aid, despite the fact that southern India and Sri 
Lanka had bumper rice crops. And, as a result, we created a 
second crisis, where we artificially depressed commodity prices 
and, hence, incomes for local farmers.
    Then, in El Salvador in 2001, you know, we had a different 
response, where the local USAID mission staff spoke to mayors 
and local leaders in affected municipalities to frame the 
essence of how their reconstruction would result in that. It 
created, you know, a focus on rural incomes and jobs by trying 
to improve farmers' access to markets, disseminating lessons 
through public institutions, and incomes, jobs, markets, and 
institutions that ultimately got reestablished and helped build 
the long-term effort there.
    So, my question is, as we, right now, have, obviously, an 
immediate response, is this--as you know, this subcommittee has 
jurisdiction of all of our foreign assistance abroad. I'm 
looking at--and I'm sure other members are interested in--are 
we including enough long-term thinking here? You've--Mark, 
you've been the head of this entity. In the----
    Mr. Schneider. I think there are two parts to it. In the 
rush to help----
    Senator Menendez. Let me get the final part of my----
    Mr. Schneider. All right.
    Senator Menendez [continuing]. So you can answer it all.
    In the rush to help, are we missing lessons from past 
disasters, and that sometimes moving--you know, there's such a 
desire to be so responsive, as we should be; by the same time, 
are we moving so fast that we cause bigger problems and miss 
big opportunities?
    Mr. Schneider. You phrased the challenge, it seems to me, 
which is that the massive desire to move quickly and respond, 
both in terms of relief and in terms of rebuilding, at times 
undermines the capacity, particularly on institution-building 
in the long term. And I guess one of the lessons that we 
learned from Hurricane Mitch was that you needed to have some 
of the voices from the countries in the process of defining our 
own strategy to help them, in terms of reconstruction.
    And one of the things that I've urged, and I would continue 
to urge, is that we find ways, as the reconstruction plan is 
being put together in Haiti and as the donors are attempting to 
respond, that the Haitian NGOs, Haitian civil society, Haitian 
private sector, be incorporated in that process.
    The donor meeting is in March or April in New York, and I 
would strongly urge that there be, at the very least, a 
premeeting that includes them and gets their ideas for some of 
these issues, going forward.
    And the second is in terms of specifically what you 
mentioned in El Salvador on agriculture and in Aceh. One of the 
fundamental failures in Haiti was that many of the policies we 
took here undermined Haitian agriculture for the long term. And 
right now, it seems to me, we have the opportunity to ask 
ourselves, how can the international community and the United 
States, particularly in the reconstruction thinking, ensure 
that, 10 years from now, Haiti is no longer importing 70 
percent of its rice and that the capacity and the potential for 
Haitian agriculture has been supported? And I would ask that 
question almost in every area, and then look at the question of 
what policy changes are needed.
    And I think it's possible. It's not easy. There are 
obviously political factors involved, but it seems to me that 
there's a potential there for achieving long-term 
transformation in the Haitian economy and of Haitian society, 
and we have a significant role to play in that process.
    Mr. MacCormack. As my testimony suggested, there's no 
question that there's got to be more long-term thinking about 
this, or we'll be right back in the same situation 3 or 5 years 
from now, and our publics will be outraged, certainly, that 
they gave so much money to Save the Children, CARE, and so on, 
and nothing changed.
    The question is how to do it. And it does seem to me we 
have national security interests in the well-being of Haiti not 
being a failed state that are quite pressing, and it is 
important to frame it that way, in my opinion.
    Haiti is one of our nearest neighbors. You can get up in 
the morning here, be in Haiti for lunch, have your meetings, 
and be back here for dinner. We cannot afford to have Haiti 
being a staging area for drugs and trafficking and so on and so 
forth. So, we have interests in the success of Haiti that are 
quite pressing.
    It's also manageable. There are only 8 million people in 
Haiti. This is not 100 million, 200 million, 300 million people 
that have to have a change. So, it's affordable. So, I think we 
have a sales task, and--all of us--to convince the Congress, 
the taxpayers, and others that this is not just one more 
emergency in one more faraway place; this is miles away from 
our own country. And hopefully, with that kind of framing, we 
can get the longer term commitment that we really need to get 
sustainable, lasting change in Haiti.
    Senator Menendez. You know, one of the things that did 
bother me--on September 11--different type of tragedy, but the 
American people came together, regardless of their race, their 
religion, their political view. It really annoyed me to see--
and I understand it's a democracy--but, political classes in 
Haiti taking the opportunity of a tragedy to, you know--I 
didn't get the sense it was a legitimate criticism as much as 
it was an opportunity to criticize.
    So, how is it--and I have no views as to who should be or 
not be in power; that's not my issue. My issue is, how do you, 
in the mist of such a set of circumstances--do you get buy-in 
by, maybe, inviting those other elements in political--the 
political universe as well as the civic universe, to be at the 
table and be responsible? Because it's very irresponsible just 
to criticize--you know, Abe Lincoln used to say, ``He who has 
the heart--who has the right to criticize must have the heart 
to help.'' It seems to me that there's some mechanism in this 
process that needs to be created in which people are brought 
in, given the opportunity to be brought in, so that they can be 
positive actors instead of just simply negative actors. Is that 
possible?
    Mr. Schneider. In fact, one good example in Central 
America, was where there were four very divergent ways of 
responding to the hurricane. In El Salvador, they called 
together a National Reconstruction Advisory Council that 
brought together private sector, civil society, et cetera, to 
talk. After there was agreement with donors about principles, 
like the ones we've enunciated, they brought together this 
Council to come up with the projects that were then presented 
by the government, with the government, for actual funding. And 
it seems to me that that is one way, in Haiti, of bringing 
things together. Haiti needs to have a new social compact that 
involves everyone. And this is one way--in a sense, as you 
said--to hold them, give them an opportunity to be responsible 
and to play a participatory role in that process. And it is 
absolutely essential, and it is very frustrating when you see 
the opportunity not taken to come together in a united fashion.
    And I will say that President Preval, as Bob said, has, in 
the past, done things to engage them, and I would hope that he 
would again.
    Senator Menendez. Do you have a----
    Mr. MacCormack. Several times--sorry. We've consistently 
mentioned the Haitian diaspora in the United States and Canada, 
and I think keeping a focus on how to mobilize that group is 
really, really important here. And I think, a generation ago, 
in Spain and Portugal, there were millions of Spaniards and 
Portuguese in the European community--what was then the 
European community--working. You had had Franco and you had 
Salazar, in Spain and Portugal, for a generation, but you had a 
group who had left and participated in democracy and 
opportunity, and then a framework was created for their return. 
And they had a huge, huge role in creating this new social 
compact in Spain and Portugal.
    I think if we can create a framework that incentivizes the 
Haitian diaspora in Canada and the United States to return, 
which many of them would be willing to do in the right 
framework, we could really move this whole thing forward.
    Senator Menendez. Final word, Mr. Maguire.
    Mr. Maguire. Yes, sir. I would like to stress a couple of 
points about this rivalry.
    Oftentimes, it's been fueled, actually, by divisions in 
Washington, the rivalries in Haiti. We've seen that in the 
1990s, we saw it in the early 2000s. I think that the fact that 
there is no rivalry on Haiti in Washington right now is a 
positive fact, and it will help us to, I think, respond better 
to trying to push Haiti to be a little more unified in this.
    There's an expression in Creole that comes to my mind. It's 
``profit de l'occasion,'' ``take advantage of the 
opportunity.'' And somehow or other, I think, with the 
government leadership, the government's got to start speaking 
out more than it has. That's obvious. I think everyone knows 
that. But, rather than people looking at this as how they will 
profit individually, either through opportunistic politics or 
price gouging or getting contracts, that sort of thing, by 
supporting the government, these kind of commissions, 
mechanisms that can bring people into the tent rather than have 
them outside, I think we can help to defuse some of this 
instinct toward taking advantage of the opportunity.
    But, I think, as well, we need to look--talking about, you 
know, the long-term thinking--in my testimony, I tried to look 
at long-term mistakes, mistakes we've been making for the past 
five decades that, in part, have pushed Haiti's 
underdevelopment along, mistakes that have been made by 
Haitians. If we take into account the mistakes, I think that we 
can move forward and do things better in this regard.
    I'd just--you know, one example. In the 1980s, there was a 
big move in Haiti to create assembly plants. It was called the 
Taiwanization of Haiti. Haiti was going to become the Taiwan of 
the Caribbean. And for a moment, maybe it did, with 60 to 1,000 
to 100,000 jobs. But, you know, as I mentioned in my testimony, 
you know, Francis Fukuyama has criticized the fact that Latin 
America as a whole, and Haiti, particular, did not do what 
Taiwan did to become Taiwan, which was invest in people first 
through universal education, and invest in agrarian development 
so that when you started the factories you'd have support 
mechanisms in the country to develop the entire country.
    So, if we learn from lessons like that, I think we can go 
forward and do this a whole lot better this time.
    Senator Menendez. Well, very good.
    Thank you very much for a good--Mark, do you feel 
compelled?
    Mr. Schneider. Yes, I feel compelled, just because the----
    Senator Menendez. I've been very liberal, here.
    Mr. Schneider. I know you have. I know you have. 
[Laughter.]
    It's just that, you know, one of the areas where the United 
States----
    Senator Menendez. Not in the political extreme, either, 
obviously. [Laughter.]
    Mr. Schneider. One of the places where the United States, 
today, can play a significant role is in the area of drug 
trafficking. President Preval has been complaining for 4 years 
that the United States has not responded in providing him help 
on interdicting drug trafficking. At the time, now, where the 
Haitian National Police is damaged, it's clear that, at some 
point in this process, the drug traffickers are going to again 
try and use Haiti as a transit point. It seems to me that that 
should be a key part of what we do in helping Haiti. And we're 
just about the only ones who can do that.
    And the other, in terms of the diaspora, right now, I think 
there are only about 15 Haitian-American police as part of the 
2,000-member United Nations police force, which is going up to 
3,500. I would hope that the United States would include the 
funding to bring--and I know they would love to go back and 
participate--a significant number of Haitian-American police 
into the U.N. police force there.
    Senator Menendez. A lot of great ideas here, and we 
appreciate it.
    We're going to keep the record open for 2 days so that 
other members may submit additional questions to you, and 
appreciate your earliest response possible. I think you've 
given us a lot of food for thought here, and a lot of 
opportunities to think about how we work with the 
administration and move forward in a way that can ultimately 
enhance the lives of the people of Haiti, both now and in the 
future.
    Thank you for your participation.
    With no additional comments, this hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Prepared Statement of International Housing Coalition (IHC),
                    Washington, DC--February 3, 2010

    The International Housing Coalition (IHC) has been monitoring the 
situation in Haiti with a particular focus on the impacts of the 
disaster on housing and critical residential infrastructure. The 
situation is desperate, as we all know, and efforts are now rightly 
focused on immediate relief, life-saving medical care, critical food 
and water, and security. At the same time, the enormous destruction to 
Haiti's housing stock threatens not just the immediate health and well-
being of the population, but the country's long-term social and 
economic viability. Experience from around the world shows that post-
disaster rescue efforts quickly morph into recovery and then 
reconstruction efforts. This process will happen in Haiti with or 
without the support of the international community and a comprehensive 
reconstruction plan.
    The U.S. Government (USG), along with other parties, has a critical 
role to play in making reconstruction resources available quickly. 
These resources must be used in a strategic way to steer the 
reconstruction process in a positive direction. More than a million 
Haitians are homeless and many more are living in unsafe, compromised 
structures. Shelter is a precondition for economic development, health, 
and security, and the efficiency of investments in other sectors is 
reduced when recipients lack safe and secure shelter. U.S. resources 
must be used equitably and efficiently to house families and 
reestablish communities in ways that enhance their resistance to future 
natural disasters.
The IHC makes the following recommendations
  <bullet> Establish a Reconstruction and Development Authority to 
        oversee and coordinate reconstruction efforts. The USG should 
        support the immediate creation of a redevelopment authority for 
        greater Port-au-Prince. The authority would develop a 
        reconstruction strategy and implementation plan. It would 
        manage and disburse redevelopment funds for housing and basic 
        infrastructure (e.g., local roads, storm water drainage, water 
        reticulation, and sewerage). It would be in a position to pool 
        funds from the United States and other donor agencies to 
        maximize impact, coordinate shelter construction with 
        infrastructure provision, and build linkages between 
        reconstruction and local investment. Successful housing 
        reconstruction requires effective public administration and 
        management, including the promulgation and monitoring of 
        minimum standards for construction. Areas not suitable for 
        reconstruction should be identified and mapped quickly, before 
        informal reconstruction gains traction and residents should be 
        made fully aware of these restrictions as soon as possible.
  <bullet> Develop a comprehensive shelter strategy. The process of 
        shelter reconstruction should take place within the framework 
        of a shelter strategy and plan supported by the donor community 
        and Government of Haiti which takes into consideration many 
        factors including local needs and effective demand, available 
        resources, institutional capabilities within both the public 
        and private sectors, legal and regulatory issues, environmental 
        considerations and opportunities for economic development.
  <bullet> Ensure that assistance for shelter is accessible and 
        provides appropriate incentives to residents of all income 
        levels to rebuild and improve their homes. Given the scale of 
        the disaster and the resulting housing deficit, rebuilding must 
        utilize the full range of local resources and institutions in 
        addition to internationally provided support. As a practical 
        matter most housing will be provided by the homeowners 
        themselves and much of this will involve the incremental 
        rebuilding of remaining structures or improvement of the 
        temporary/transitional shelter received in the early days of 
        the relief effort. Assistance for home reconstruction must 
        provide effective incentives for families and others to build 
        using materials and techniques that increase resistance to 
        future disasters, while still providing opportunities for 
        small-scale builders, for self-help construction, and for 
        efforts by community groups and nongovernmental organizations.
  <bullet> Ensure that housing and infrastructure reconstruction 
        efforts support and enhance local economic development. 
        Employment generation should be an explicit objective of the 
        rebuilding process in order to increase household income and 
        thereby stimulate consumer demand and production.
                                 ______
                                 
                     [From Newsweek, Jan. 22, 2010]

                          After Reconstruction

       Rebuilding Haiti means more than just bricks and mortar--
                     It means building institutions
                          (By Andrew Natsios)
    The mobilization inside the United States--among the military, aid 
groups, the public--to help Haiti has been quick and generous. 
Hopefully, alongside peacekeepers and other international partners, we 
can help the Haitians stabilize their country and reduce human 
suffering. But then the work of rebuilding will begin, as the U.S. 
helps them to reconstruct their shattered capital and economy. And it 
will probably not go well. Not because the destruction was so massive 
(that is a surmountable problem), but because Washington policymakers 
unfamiliar with development practice still don't understand how to help 
the Haitians erect a functioning civil society, private economy, and 
competent government. It's not about reconstruction and humanitarian 
aid; it's about institutions. And without them, Haiti will remain a 
failed state.
    In a recent book, ``Violence and Social Orders,'' Nobel Prize-
winning economist Douglass North and John Wallis and Barry Weingast 
explain what distinguishes rich countries from poor ones. It's not just 
wealth, education, or resources. It's about the density of legitimate 
institutions--groups to administer pubic service, keep public order, 
ensure the rule of law, and build a market economy. The United States, 
as de Tocqueville first noticed on his travels in America during its 
youth, is probably more densely packed with institutions per capita 
than any society in world history, helping to make it wealthy and so 
stable. North and his colleagues argue that institutions challenge and 
help governments: they allow societies to negotiate conflicting 
interests peaceably, maintain public accountability and transparency, 
conduct impersonal market transactions essential for rapid economic 
growth, and provide government services to everyone equally. In more 
traditional societies, powerful elites limit groups like these that 
check their power; and they use the government (and its treasury) to 
build patronage networks, restrict economic activity to their own 
class, and hand out public services to their own supporters to keep 
them loyal. If we could measure it, Haiti probably would have the 
lowest number of legitimate institutions of any country in the Western 
hemisphere, and maybe the world.
    A National Academy of Public Administration report of 2006 on why 
foreign aid has failed in Haiti summarized general donor opinion, which 
has ``variously characterized Haiti as a nightmare, predator, 
collapsed, failed, failing, parasitic, kleptocratic, phantom, virtual 
or pariah state.'' One World Bank study of Haitian governance reports 
that ``30% of civil service were phantom employees . . . One ministry 
had 10,000 employees, only about half of whom were ever at work.'' A 
USAID evaluation of the Haitian government institutions reported they 
are ``characterized by lack of trained personnel; no performance based 
personnel system, no accepted hiring, firing, and promotion procedures; 
heavy top down management; and a decided lack of direction.'' In a 
word, Haiti was a failed state before the earthquake. The country needs 
more than rebuilding.
    But the crucial idea in ``Violence and Social Orders''--that once 
basic human needs are met, institutions are more important for a 
functioning country--is not driving Western aid. Increasingly, the 
groups who purvey it have focused on the delivery of services, not the 
building of institutions. For its part, Washington takes reconstruction 
literally (bricks and mortar alone). It's a truism that ports, roads, 
sewage, schools, health clinics, bridges, and clean water are 
preconditions to a stable country and expanding economy. But if that's 
all we do, Haiti will simply revert to dysfunction, and whatever is 
reconstructed will begin to crumble over time without institutions to 
ensure maintenance. (Even before the quake, Haiti's public services, 
where they existed at all, were perilously close to collapse.)
    Unfortunately, institution building is much harder than 
reconstruction. Political pressure from Washington since the end of the 
Cold War, has demanded speed, visibility, and measurable results in 
state-building exercises. But functional institutions will take a 
decade or more, their successes will be undramatic, and many will be 
difficult to quantify. Aid efforts in Haiti in the past have focused 
too much on delivering public services through nongovernmental 
organizations and international groups instead of the trying to reform 
the Haitian institutions that should be delivering these services. But 
simply providing aid funds through Haitian government ministries, 
however--the newest international-aid fad--will strengthen the 
predatory forces that control them. Paul Collier, in his book the 
``Bottom Billion'' says this kind of aid in a failed state will have 
the same affect oil revenues do in poor countries--it encourages 
looting of the treasury. Only a massive shift of personnel, power, and 
resources within Haitian society will break the stranglehold of 
predators. How do we do this?
    Building new institutions will require competent and honest Haitian 
leadership. Haitian President Rene Preval has shown technical skill in 
improving governance during the last two years, but he has been 
invisible in the post-quake humanitarian-aid effort, which has damaged 
him politically. He will need help, and one of the best ways of 
generating that help in a country that has had a chronic leadership 
deficit is to bring prosperous, educated Haitians on a large scale back 
from the diaspora to help him build new Haitian institutions. Haitians 
in America and Canada are well known as upwardly mobile, 
entrepreneurial, and hardworking. They could be the vanguard of a new 
Haitian governing leadership to reform the corrupt and dysfunctional 
system.
    At the same time, the Unites States should bring emerging Haitian 
leaders to American universities and colleges. The most successful 
institution-building program ever used by USAID, the U.S. government's 
main foreign development arm, was its scholarship program, which 
brought 18,000 students a year to American colleges and universities. 
Those scholarships have been phased out over time because Washington 
regulators demanded rapid and visible results, which education does not 
produce. But scholarships engender long-term transformation, because 
graduates usually return to their home countries from the United States 
as reformers. Bringing promising Haitians to the U.S. for graduate 
programs (with safeguards to ensure they return to Haiti afterward) can 
complement the return of the Haitian diaspora in building new 
institutions.
    Another imperative is security, without which the exodus of 
educated professionals will continue. Criminal gangs linked to the drug 
trade have grown more powerful over the past few years and are behind 
the growing violence in Haitian society. Unless this trend is arrested, 
any effort to build new institutions will fail. This means that a large 
U.N. peacekeeping and police presence with a more aggressive mandate 
will be needed to keep order for at least a decade before this 
institution-building effort can show results. It will take U.N. and aid 
agencies a decade to help the Haitians build the local military and 
police forces necessary for a functioning criminal-justice system.
    Once those programs are in place, Haiti can begin to lure 
investment. Beyond the terrible loss of human life from the earthquake, 
the greatest invisible devastation is the destruction of jobs, 
businesses, and economic activity. International business and capital 
markets do not invest money in failed states, and, without that 
investment, job creation, and economic growth (on the scale necessary 
to transform Haitian society) are impossible. And without economic 
growth, new Haitian institutions will be unsustainable, lacking the 
local tax revenue to fund them when aid ends. So even if reconstruction 
goes well, Haiti's failed-state status offers the twin economic 
challenges of mass unemployment and a poor business climate. And 
private capital must flow to new institutions in the private sector; it 
cannot all be focused on the Haitian state. USAID ran successful 
economic-growth programs for just that purpose in Indonesia, Bosnia, 
Kosovo, and El Salvador.
    If Western countries want to end the dysfunctional cycle of crisis 
and failed Band-Aid development in Haiti, tractors and concrete will 
not be enough. Only an institution-based model of reconstruction will 
succeed.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
